Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




The External Review of Hospital Quality
     A Call for Greater Accountability




                     JUNE GIBBS BROWN
                      Inspector General

                          JULY 1999
                        OEI-01-97-00050
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

BOSTON                                                   HEADQUARTERS

Joyce M. Greenleaf, Project Leader                       Jennifer Antico, Program Specialist
Lynne G. Dugan, Senior Analyst                           Alan Levine, Program Specialist
Meredith A. Vey, Program Analyst


         To obtain copies of this report, please call the Boston Regional Office at 617/565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                          EXECUTIVE                       SUMMARY

PURPOSE

          To provide a summary and recommendations based on our assessment of the external
          review of hospitals that participate in Medicare.

BACKGROUND

External Quality Review of Hospitals in the Medicare Program

                  Hospitals are a vital part of our healthcare system, routinely providing valuable
          services. But they are also places where poor care can lead to unnecessary patient harm.
          This reality was clearly underscored in 1991, when a Harvard medical practice study
          revealed the results of its review of about 30,000 randomly selected records of patients
          hospitalized in New York State during 1984. The study found that 1 percent of the
          hospitalizations involved adverse events caused by negligence. On the basis of these
          findings, it estimated negligent care in New York hospitals in that year was responsible for
          about 27,000 injuries, including almost 7,000 deaths and close to 1,000 instances of
          “permanent and total disability.” More recently, a 1997 study of about 1,000 hospitalized
          patients in a large teaching hospital found that almost 18 percent of these patients received
          inappropriate care resulting in a serious adverse event. In the public eye, such scholarly
          inquiries have been overshadowed by media reports that describe, often in graphic detail,
          the harm done to patients because of poor hospital care.

                  Hospitals rely upon many internal mechanisms to avoid such incidents and to
          improve the quality of care. External review serves as an additional safeguard. The
          Federal government relies primarily on two types of external review to ensure hospitals
          meet the minimum requirements for participating in Medicare: accreditation, usually by
          the Joint Commission on Accreditation of Healthcare Organizations, and Medicare
          certification, by State Agencies. About 80 percent of the 6,200 hospitals that participate
          in Medicare are accredited by the Joint Commission.

This Summary Report

                 This report synthesizes the findings we present in three parallel reports. It is based
          on our broad inquiry of the external quality oversight of hospitals, for which we drew on
          aggregate data, file reviews, surveys, and survey observations from a rich variety of
          sources, including the Health Care Financing Administration (HCFA), the Joint
          Commission, State agencies, and other stakeholders.


Hospital Quality: A Call for Greater Accountability   1                                   OEI-01-97-00050
                  The report, as our study as a whole, focuses on the roles played by the Joint
          Commission and the State agencies in reviewing hospitals and by HCFA in overseeing
          these bodies. Other bodies, most especially the Medicare Peer Review Organizations and
          State Professional Licensure Boards, play important related roles. We have reviewed their
          performance in numerous prior studies and will continue our examination of them in future
          studies. They are not discussed in this report.


FINDINGS

The current system of hospital oversight has significant strengths that help
protect patients.

          Joint Commission surveys provide an important vehicle for reducing risk and
          fostering improvement. Hospital leadership takes these accreditation surveys seriously.
          Hospitals spend months preparing for them, seeking to ensure that their hospitals meet
          and, where possible, exceed the Joint Commission’s standards.

          State agency investigations offer a timely, publicly accountable means for
          responding to complaints and adverse events. The HCFA funds these investigations as
          a high priority. For both accredited and nonaccredited hospitals, they serve as a
          significant front-line response to major incidents involving patient harm.

But it also has major deficiencies.

          Joint Commission surveys are unlikely to detect substandard patterns of care or
          individual practitioners with questionable skills. Quick-paced, tightly structured,
          educationally oriented surveys afford little opportunity for in-depth probing of hospital
          conditions or practices. Rather than selecting a random sample, the surveyors tend to rely
          on hospital staff to choose the medical records for review. Further, the surveyors typically
          begin the process with little background information on any special problems or challenges
          facing a hospital.

          The State agencies rarely conduct routine, not-for-cause surveys of nonaccredited
          hospitals. The percent of nonaccredited hospitals that have not been surveyed within the
          3-year industry standard has grown from 28 percent in 1995 to 50 percent in 1997. In
          some cases, nonaccredited hospitals, usually in rural areas, have gone as long as 8 years
          without a survey.

Overall, the hospital review system is moving toward a collegial mode of
oversight and away from a regulatory mode.




Hospital Quality: A Call for Greater Accountability   2                                  OEI-01-97-00050
                 A collegial mode of oversight is one that focuses on education and improved
          performance. It emphasizes a trusting approach to oversight, rooted in professional
          accountability and cooperative relationships. A regulatory mode focuses on investigation
          and enforcement of minimum requirements. It involves a more challenging approach to
          oversight, grounded in public accountability. It is helpful to consider external hospital
          oversight in terms of a continuum, characterized by the collegial approach on one side and
          the regulatory approach on the other.

          The Joint Commission, the dominant force in external hospital review, is leading
          this movement. It is grounded in a collegial approach to review that stresses education
          and improvement. It focuses on systems in its quest to improve hospital processes and
          patient outcomes.

          The State agencies are rooted in a more regulatory approach to oversight. But
          HCFA, through the proposed Medicare conditions of participation, is looking for
          them to follow the Joint Commission’s lead. Traditionally, the State agencies have
          emphasized investigatory approaches that aim to protect patients from harm more than to
          improve the overall standard of care. The proposed conditions call for them to move in a
          direction parallel to that of the Joint Commission.

          The emerging dominance of the collegial mode may undermine the existing system
          of patient protection afforded by accreditation and certification practices. It
          contrasts significantly with the current regulatory emphasis in nursing home
          oversight. Both the collegial and regulatory approaches to oversight have value. As the
          system increasingly tilts toward the collegial mode, however, it could result in insufficient
          attention to investigatory efforts intended to protect patients from questionable providers
          and substandard practices.

                  For nursing homes, recent concerns about the quality of care provided have led to
          a HCFA crack-down involving more immediate penalties, surprise surveys, and posting of
          survey results on the Internet, with scant attention to collegial approaches. Such a heavy
          regulatory emphasis may well not be required for hospitals, but it does reinforce the point
          that when patients are found to be at risk, regulatory approaches have an important part to
          play. As we have noted, many recent studies and media reports make it clear that
          hospitals, too, are places where inappropriate care can and frequently does put patients at
          risk.

The HCFA does little to hold either the Joint Commission or the State agencies
accountable for their performance overseeing hospitals.

          The HCFA obtains limited information on the performance of the Joint Commission
          or the States. In both cases, HCFA asks for little in the way of routine performance
          reports. To assess the Joint Commission’s performance, HCFA relies mainly on validation


Hospital Quality: A Call for Greater Accountability   3                                    OEI-01-97-00050
          surveys conducted, at HCFA’s expense, by the State agencies. But for a number of
          reasons the value of these surveys has been limited. The methodology for selecting the
          hospitals to survey fails to consider hospital size, type, or past performance. More
          fundamentally, the surveys have been based on different standards (the Medicare
          Conditions of Participation as opposed to the Joint Commission standards) and have been
          conducted subsequent to the Commission’s surveys (when hospital conditions could have
          changed). During 1996 and 97, HCFA piloted 20 observation surveys--during which
          State and HCFA officials accompanied Joint Commission surveyors. This approach
          appears to have much promise, but HCFA has not yet issued any evaluation of the pilots.

                 The HCFA observes few hospital surveys conducted by State agencies and
          conducts no validation surveys of them.

          The HCFA provides limited feedback to the Joint Commission and the State
          agencies on their overall performance. Its feedback to the Joint Commission is more
          deferential than directive. Its major vehicle for feedback to the Joint Commission is its
          annual Report to Congress, which is based on the validation surveys and has typically been
          submitted years late. The HCFA is more directive to the State agencies, which carry out
          their survey work in accord with HCFA protocols, but gives them little feedback on how
          well they perform their hospital oversight work.

          Public disclosure plays only a minimal role in holding Joint Commission and State
          agencies accountable. The HCFA makes little information available to the public on the
          performance of either hospitals or of the external reviewers. By contrast, HCFA posts
          nursing home survey findings on the Internet and requires nursing homes to post them as
          well. The Joint Commission has been more proactive than HCFA in making hospital
          survey results widely available on the Internet and through other means.

RECOMMENDATIONS

                  We offer one guiding principle and two recommendations that set forth ways in
          which HCFA can, over time, provide leadership to address the shortcomings we have
          identified in our inquiry, holding the Joint Commission and State agencies more
          accountable for their performance.

GUIDING PRINCIPLE: The HCFA, as a guiding principle, should steer external
reviews of hospital quality so that they ensure a balance between collegial and
regulatory modes of oversight.

                 The HCFA must recognize that both approaches have value and that a credible
          system of oversight must reflect a reasonable balance between them. In our assessment, a
          balanced system would involve the continued presence of on-site hospital surveys, both
          announced and unannounced; an ongoing capacity to respond quickly and effectively to

Hospital Quality: A Call for Greater Accountability   4                                OEI-01-97-00050
          complaints and adverse events; further development and application of standardized
          performance measures; and, even though it is not much in evidence at this time, a
          mechanism for conducting retrospective reviews of the appropriateness of hospital care.
          A balanced system would also be one in which performance measures are used to protect
          patients from harm as well as to improve the standard of care.

                  In its steering role, HCFA must recognize the inherent strengths and limitations of
          accrediting bodies and the State agencies. Each contributes to the external review of
          hospitals, but they do so differently. Thus, in steering, HCFA should look to the Joint
          Commission to tilt (but not too far) toward the collegial end and the State agencies to tilt
          (but not too far) toward the regulatory end.

RECOMMENDATION 1: The HCFA should hold the Joint Commission and State
agencies more fully accountable for their performance in reviewing hospitals.

          < Revamp Federal approaches for obtaining information on Joint Commission and State
          agency performance by de-emphasizing validation surveys, giving serious consideration to
          the potential of observation surveys, and calling for more timely and useful reporting of
          performance data.

          < Strengthen Federal mechanisms for providing performance feedback and policy guidance
          to the Joint Commission and State agencies. Given the major role played by the Joint
          Commission, the public purposes associated with its special deemed status authority, and
          the importance of achieving a more balanced system of external review, HCFA should
          negotiate with the Joint Commission to achieve the following changes:

                     C          Conduct more unannounced surveys.
                     C          Make the “accreditation with commendation” category more meaningful,
                               or do away with it altogether.
                     C          Introduce more random selection of records as part of the survey process.
                     C          Provide surveyors with more contextual information about the hospitals
                               they are about to survey.
                     C          Jointly determine some year-to-year survey priorities, with an initial
                               priority on examining credentials and privileges.
                     C          Conduct more rigorous assessments of hospitals’ internal continuous
                               quality improvement efforts.
                     C          Enhance the capacity of surveyors to respond to complaints within the
                               survey process.

          < Assess periodically the justification for the Joint Commission’s deemed status authority.




Hospital Quality: A Call for Greater Accountability     5                                    OEI-01-97-00050
          < Increase public disclosure on the performance of hospitals, the Joint Commission, and
          State agencies, by, at a minimum, posting more detailed information on the Internet.

RECOMMENDATION 2: The HCFA should determine the appropriate minimum
cycle for conducting certification surveys of nonaccredited hospitals.

                  Nonaccredited hospitals are subject to limited external review other than those
          reviews triggered by complaints and adverse events. Unlike nursing homes and home
          health agencies, hospitals lack a mandated minimum cycle for surveys. While complaints
          and adverse events may well warrant priority over routine surveys, such surveys play an
          important role in external review, and by determining a minimum cycle HCFA can increase
          the level of attention to hospital oversight.


COMMENTS


                   Within the Department of Health and Human Services, we received comments on
          our draft reports from HCFA--the Departmental agency to which all of our
          recommendations are directed. We also solicited and received comments from the
          following external organizations: the Joint Commission on Accreditation of Healthcare
          Organizations, the Association of Health Facility Survey Agencies, the American
          Osteopathic Association, the American Hospital Association, the American Association
          for Retired Persons, the Service Employees International Union, the National Health Law
          Program, and Public Citizen’s Health Research Group. In appendix E, we present each
          organization’s comments in full. Below, we summarize the thrust of the comments and,
          in italics, offer our responses.

HCFA Comments

                  The HCFA reacted positively to our findings and recommendations. It offered a
          detailed hospital oversight plan that incorporates our many recommendations. The plan
          reflects HCFA’s commitment to more frequent surveys of nonaccredited hospitals, to
          strengthened oversight of both the State agencies and the Joint Commission, and to a
          balance between collegial and regulatory approaches to oversight. In addition, HCFA
          presented a hospital performance measurement strategy based on developing standardized
          performance measures that are consumer- and purchaser-driven and that are in the public
          domain.

                 The HCFA’s action plan is highly responsive to the recommendations we set
          forth. As it is carried out, it can be of considerable value in improving patient safety and
          the quality of patient care.



Hospital Quality: A Call for Greater Accountability   6                                  OEI-01-97-00050
Joint Commission and Association of Health Facility Survey Agencies Comments

                  The Joint Commission and the State survey agencies, which the Association of
          Health Facility Survey Agencies represents, are the two key parties that HCFA relies upon
          to conduct external reviews of hospital quality. The Joint Commission agreed with the
          principle of balance between collegial and regulatory approaches, but regarded our
          concerns about an emerging dominance of the collegial approach to be unfounded. It also
          objected to the limitations we cited about its survey approach and to our conclusion that
          the Joint Commission devotes minimal attention to complaints. It did express support for
          stronger, more performance-oriented HCFA oversight of the Joint Commission. The
          Association, while agreeing with the thrust of our assessment, noted some reservations
          about phasing out the validation surveys in favor of an observation survey approach that is
          largely untested.

                  We stress here, as we did in the text, the importance of a balance in oversight that
          avoids tilting too far toward either the collegial or the regulatory ends. We believe that
          we established credible bases for such a balanced approach. Similarly, we believe that
          our assessments of Joint Commission practices are balanced and well-supported. We
          identified various strengths that the Joint Commission brings to the field of quality
          oversight. We regard the limitations that we cited as an important part of the overall
          picture. With respect to the Association’s reservations about the observation surveys as
          a tool of oversight, we suggest that the problems we pointed out about the validation
          process are significant ones and that the potential of the observation surveys is
          compelling enough to warrant further exploration.

Comments of Other External Organizations

                  Overall, the other stakeholder organizations offered considerable support for our
          findings and recommendations. But they also expressed concerns. The American
          Hospital Association took issue with how we applied the collegial and regulatory concepts
          and stressed that hospital liability concerns preclude the kind of public disclosure we urge.
          The American Osteopathic Association noted reservations about more unannounced
          surveys and suggested that a closer review of medical care during on-site surveys would
          be more productive. The American Association of Retired Persons agreed with the thrust
          of our recommendations.

                  The Service Employees International Union, the National Health Law Program,
          and Public Citizen’s Health Research Group called for even stronger Federal actions than
          we recommended. These included a stronger emphasis on regulatory approaches, greater
          reliance on unannounced surveys, more extensive public disclosure, and firmer HCFA
          action in overseeing the Joint Commission and in reassessing its deeming authority.




Hospital Quality: A Call for Greater Accountability   7                                   OEI-01-97-00050
                  These stakeholders raise concerns and urge directions that we often heard
          expressed during our study. As HCFA carries out its hospital quality oversight plan, we
          suggest that it take these perspectives into account. We believe that our
          recommendations (and HCFA’s announced action plan) sets forth a balanced course of
          action that draws to some degree on the insights of each of these stakeholders. This
          course is one that can substantially improve the external review of hospital quality in the
          years ahead.




Hospital Quality: A Call for Greater Accountability   8                                  OEI-01-97-00050
                          TABLE                         OF              CONTENTS


                                                                                                                                  PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


FINDINGS


          Strengths of Hospital Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Deficiencies of Hospital Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Oversight is Moving Toward a Collegial Mode . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          Little Accountability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


COMMENTS ON THE DRAFT REPORTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32


APPENDICES


          A: Medicare Conditions of Participation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 35

          B: Summary of the Roles of Accreditation and Certification . . . . . . . . . . . . . . . . . . . . .                            36

          C: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      37

          D: Certification Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         40

          E: Comments on the Draft Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  47

          F: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   90





Hospital Quality: A Call for Greater Accountability                 9                                                    OEI-01-97-00050
                                       INTRODUCTION

PURPOSE

                 To provide a summary and recommendations based on our assessment of the
          external review of hospitals that participate in Medicare.

BACKGROUND

Hospital Safety

                  Hospitals are an integral part of our healthcare system, offering services that
          improve, extend, and even save lives. But they are also places where inappropriate care
          can lead to unnecessary harm. This reality was clearly underscored in 1991, when a
          Harvard medical practice study revealed the results of its review of about 30,000
          randomly selected records of patients hospitalized in New York during 1984. The study
          found that 1 percent of the hospitalizations involved adverse events caused by negligence.1
          On the basis of its sample, the study team estimated that during that year, negligent care
          provided in New York State hospitals was responsible for 27,179 injuries, including 6,895
          deaths and 877 instances of “permanent and total disability.” Many other more recent
          studies have reinforced the concerns raised by the Harvard study. Of particular note was
          one that focused on the care received by 1,047 hospitalized patients in a large teaching
          hospital affiliated with a medical school. It found that 17.7 percent of these patients
          received inappropriate care resulting in a serious adverse event--ranging from temporary
          disability to death.2 In the public eye, these scholarly inquiries have been overshadowed
          by media reports that describe, often in graphic detail, the harm done to patients because
          of poor hospital care.3

                  Hospitals rely upon a variety of internal mechanisms, from physician credentialing,
          to peer review and benchmarking, in order to try to avoid such incidents and to improve
          the quality of care provided in their facilities. External quality review serves as a vital
          additional safeguard. It provides a more detached, independent mechanism for assessing
          the adequacy of hospital practices. Such oversight is of fundamental importance to
          patients and to the public and private entities that purchase health care services on their
          behalf. Protecting patient safety and improving the quality of patient care must be a top
          priority of external review.




Hospital Quality: A Call for Greater Accountability   10                                 OEI-01-97-00050
Medicare’s Interest in External Hospital Quality Review

                  The Medicare program covers about 38 million elderly and disabled individuals,
          many of whom are high users of hospital care.4 In 1997, Medicare spent about $136
          billion on Part A, the hospital insurance benefit.5 This figure is just over half the total
          amount the Federal government spent on all Medicare benefits.6 In the same year,
          Medicare spent over $80 billion for inpatient acute hospital care alone.7

                  Since Medicare’s inception, external quality review has been a part of the
          Medicare program. When Congress enacted the Medicare Act in 1965, it required
          hospitals to meet certain minimum health and safety requirements to participate in the
          program.8 Those minimum requirements, called the Medicare conditions of participation,
          were published in 1966, revised in 1986, and are now being revised again (see appendix
          A).9 Within the Medicare Act itself, however, Congress provided that hospitals accredited
          by the Joint Commission on Accreditation of Healthcare Organizations were deemed to be
          in compliance with the conditions of participation. Congress also provided that hospitals
          accredited by the American Osteopathic Association could be considered in compliance,
          but only to the extent that the Secretary deemed appropriate.10 Thus, accreditation by the
          Joint Commission or the American Osteopathic Association provides entree into the
          Medicare program. About 80 percent of the 6,200 hospitals that participate in Medicare
          are accredited by the Joint Commission. Those hospitals wishing to participate in
          Medicare without accreditation must go through a Medicare certification process. The
          Health Care Financing Administration (HCFA) relies on State survey and certification
          agencies (hereafter called State agencies) to conduct certification surveys at these
          hospitals to determine compliance with the Medicare conditions. States currently certify
          1,442 nonaccredited hospitals nationwide.11

                  Regardless of the route a hospital takes to Medicare participation, Medicare bears
          a cost for the external review, either directly by funding State surveys or indirectly through
          hospital charges that include the overhead cost of periodic accreditation surveys.

                  Both accreditation and Medicare certification involve a team of trained surveyors
          visiting a hospital, interviewing staff, reviewing documents, and inspecting the facility.12
          However, the nature of these processes is very different.

The Nature of Accreditation

                  Accreditation is a voluntary assessment process whereby industry experts define
          what standards organizations must meet in order to be accredited and then systematically
          review the organization’s performance against those standards.13 It is a form of self-
          regulation for which hospitals pay a fee.14 The Joint Commission enjoys a special status
          because, by Federal statute, hospitals accredited by the Joint Commission are deemed to
          meet the Medicare conditions of participation.15 As the largest accreditor of hospitals,


Hospital Quality: A Call for Greater Accountability   11                                   OEI-01-97-00050
          accrediting about 80 percent of the nation’s 6,200 hospitals, the Joint Commission is
          responsible for the majority of the nation’s external quality review of hospitals. In 1972,
          Congress enacted amendments that gave the Health Care Financing Administration
          (HCFA) responsibility for overseeing the Joint Commission.16

The Nature of Medicare Certification

                  The Medicare certification process, on the other hand, is a public regulatory
          process that aims to ensure hospitals desiring to serve Medicare beneficiaries, but not
          desiring to be accredited, meet the conditions of participation. The HCFA relies on the 51
          State survey and certification agencies (hereafter called State agencies) to determine
          compliance with the Medicare conditions of participation. Hospitals pay no fee for this
          process. States agencies certify 1,442 nonaccredited hospitals nationwide.17 These State
          agencies are paid and trained by HCFA and use HCFA’s survey instrument to survey
          nonaccredited hospitals.

This Inquiry and Report

                 This inquiry focuses on the roles played by the Joint Commission and State survey
          agencies and by HCFA in overseeing these bodies. Other bodies, most especially the
          Medicare Peer Review Organizations and State professional licensure boards, also play
          important roles. We have reviewed their performance in prior studies and will continue to
          examine them in future studies.18 They are not discussed in this report.

                  This report summarizes the three other reports that resulted from our inquiry and
          contains our recomendations. The other reports are: The Role of Accreditation (OEI-01-
          97-00051), which assesses the Joint Commission’s approach to hospital accreditation; The
          Role of Medicare Certification (OEI-01-97-00052), which assesses the extent and nature
          of the external review for nonaccredited hospitals; and Holding the Reviewers
          Accountable (OEI-01-97-00053), which assesses how HCFA oversees both the Joint
          Commission and the State survey agencies. We offer a summary of two of the reports,
          The Role of Accreditation and The Role of Medicare Certification, in appendix B.

                  Our inquiry draws on a variety of sources. These include: data from HCFA’s
          Online Survey Certification and Reporting System; aggregate data from the Joint
          Commission concerning hospital survey activity; a mail survey to State agencies in the 50
          States and District of Columbia (hereafter referred to as a State); observations of the
          hospital surveys conducted by the Joint Commission and State agencies; reviews of
          accreditation manuals, policies, and hospital survey files from the Joint Commission; the
          systematic gathering of information from representatives of HCFA central and regional
          offices, State agencies, the Joint Commission, American Hospital Association, consumer
          groups, professional associations, and representatives of other organizations we
          considered to be stakeholders in hospital oversight; and reviews of laws, regulations, and


Hospital Quality: A Call for Greater Accountability   12                                  OEI-01-97-00050
          articles from newspapers, journals, newsletters, and magazines. We also interviewed
          officials from the American Osteopathic Association and reviewed their accreditation
          materials. The American Osteopathic Association accredits about 100 to 150 hospitals,
          some of which are also accredited by the Joint Commission. For purposes of this inquiry,
          however, we focused on the Joint Commission. See appendix C for more details on our
          methodology.

A Systemic Review

                  In this report we focus on the overall system of external review carried out by the
          Joint Commission, State survey and certification agencies and HCFA. We address issues
          that have a significant bearing on how well that system works. In so doing, we draw on a
          wide body of evidence from the sources we noted above. Our findings and
          recommendations represent our conclusions based on our assessment of this evidence.
          We present them with the intent of providing helpful directions on how HCFA, the Joint
          Commission, and the State agencies can play a more effective role in protecting patients
          and improving quality.

                 We conducted this inspection in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Hospital Quality: A Call for Greater Accountability   13                                 OEI-01-97-00050
                                                  FINDINGS

The current system of hospital oversight has some
significant strengths that help protect patients.
Joint Commission surveys provide an important vehicle for reducing risk and
fostering improvement in hospitals.

                  The Joint Commission’s triennial surveys form the core of its accreditation
          process. As such, they serve as the means for a Joint Commission presence in accredited
          hospitals every 3 years. Hospitals know the surveyors are coming, take the process
          seriously, and prepare for it. This institutionalizes attention to the basic protections that
          are encompassed within the Joint Commission standards--standards that promote the
          delivery of quality health care and are widely considered to be state-of-the-art. In
          preparing for the Joint Commission, many hospitals hire consultants to conduct mock
          surveys, update their manuals, and familiarize their staffs with the standards. While at the
          hospitals, the Joint Commission surveyors often take on the role of educator, explaining
          the standards’ intent and relationship to patient care.

                  The Joint Commission has also been a leader in promoting performance
          improvement in hospitals. Indeed, attention to performance improvement pervades the
          entire hospital survey process: it is generally the topic of the opening session and most
          sessions include some discussion about improvement projects. The hospitals, in preparing
          for the surveys, display storyboards and posters highlighting their improvement projects
          throughout the hospital.

State agency investigations offer a timely, publicly accountable mechanism for
responding to complaints and adverse events in both accredited and
nonaccredited hospitals.

                  State agencies are the front-line responders to complaints and to major adverse
          events in hospitals. Adverse events involving serious patient harm often attract attention
          from the media and concerned citizens who clamor for information and reassurance. The
          State agencies’ investigations fulfill a vital role by ensuring the public’s safety is being
          looked after. The results of the State agencies’ investigations, which are based on the
          Medicare conditions of participation, are available to the public.

                 Responding to complaints and adverse events is a high priority for the State
          agencies: HCFA ranks responding to such events third--after routine nursing home and



Hospital Quality: A Call for Greater Accountability   14                                   OEI-01-97-00050
          home health surveys but before routine hospital surveys--in its priorities for State
          agencies’ survey and certification budgets.



But it also has major deficiencies.
Joint Commission surveys are unlikely to detect substandard patterns of care or
individual practitioners with questionable skills.

                  Joint Commission surveyors get a broad rather than in-depth view of hospitals they
          survey. The surveys generally last just a few days. The survey agendas are packed with
          back-to-back sessions that allow 45 minutes to an hour for most areas of the hospital.
          Furthermore, the surveyors lack much background information on the hospital that could
          help them hone their surveys.

                  The surveyors’ broad view of the hospitals, coupled with the Joint Commission’s
          approaches to medical record and credentials reviews, make such surveys unlikely to
          uncover patterns or individuals responsible for poor care. First of all, surveyors do not
          select the records for review based on indications of poor quality. Indeed, the hospitals
          themselves often choose the records for review. In reviewing medical records, surveyors
          focus more on processes than appropriateness of care: surveyors “do not judge directly
          whether the care given is good or bad, right or wrong.”19 Likewise, the review of
          physician credentials and privileges falls short of identifying individuals whose skills may
          be questionable: the sessions are too short for an in-depth review, hospitals often choose
          the records themselves, and the questioning rarely uncovers marginal practitioners. The
          Joint Commission’s own publications note that the process “does not evaluate the quality
          of care provided by individual medical staff members.”20

The State agencies rarely conduct routine, not-for-cause surveys of
nonaccredited hospitals.

                  Routine surveys of nonaccredited hospitals are a low priority. Only a few years
          ago, State survey agencies surveyed nonaccredited hospitals every year or two. But as of
          October 1997, the average elapsed time between surveys was about 3.3 years and
          growing. Indeed, fully half of the nonaccredited hospitals had not had a survey within 3
          years as of late 1997. The total number of certification surveys for nonaccredited
          hospitals fell from 286 in 1995 to 184 in 1997, a drop of 36 percent in 2 years. The
          decline in routine hospital surveys coincides with the dramatic rise in home health
          agencies, which States must also survey.

                 The HCFA sets the survey and certification budget priorities for the State
          agencies: routine nursing home and home health agency surveys and responses to


Hospital Quality: A Call for Greater Accountability   15                                   OEI-01-97-00050
          complaints of any kind all precede routine surveys of nonacredited hospitals.21 Unlike
          nursing homes and home health agencies, hospitals lack a mandated minimum cycle for
          surveying. For fiscal year 1998, HCFA funded State agencies to survey 10 percent of
          their nonaccredited hospitals and 60 percent of their home health agencies.



Overall, the hospital review system is moving toward a
collegial mode of oversight and away from a regulatory
mode.
                  It is helpful to consider external hospital oversight in terms of a continuum,
          characterized by a collegial approach on one side and a regulatory approach on the other.
          External reviewers in the collegial mode focus on education and improved performance;
          those in the regulatory mode focus on investigation and enforcement of minimum
          requirements. In the continuum below, we list the major characteristics we associate with
          each side.

          Collegial Mode                                      Regulatory Mode
          (Educate and Elevate)                               ( Investigate and Enforce)


          Cooperative
                                        Challenging

          Flexible
                                           Rigid

          Foster Process Improvements
                        Enforce Minimums

          Guidance
                                           Directive

          Trusting
                                           Skeptical

          Professional Accountability
                        Public Accountability

          Confidentiality
                                    Public Disclosure

          Systems Focus
                                      Outlier Focus

          Improve Patient Outcomes
                           Minimize Preventable Harm



The Joint Commission is leading this movement toward the collegial mode.

                  The Joint Commission is and has been the dominant force in the external review of
          hospitals. As such, its approach holds great sway. And its approach is grounded in the
          collegial mode. Indeed, its very mission statement demonstrates this: “to improve the
          quality of care provided to the public through the provision of accreditation and related
          services that support performance improvement in health care organizations.”22 Support
          for performance improvement is widespread. Its approach is grounded in the theory that




Hospital Quality: A Call for Greater Accountability   16                               OEI-01-97-00050
          improving overall performance even marginally is far more important than dealing with the
          poor performers at the margin.23

                   The Joint Commission recently implemented a policy for dealing with serious
          adverse events in hospitals that embodies the collegial approach to oversight.24 This
          policy stresses research, education, and prevention--all laudable goals that favor the
          collegial side of the continuum. It relies on hospitals to self-report certain events, thereby
          stressing professional accountability and trust. And it emphasizes confidentiality for the
          self-reporting hospitals. Indeed, the success of the policy’s research and prevention goals
          rest in large measure on the safe venue that the assurance of confidentiality provides to
          reporting hospitals. Through this approach, the Joint Commission seeks to encourage
          hospitals to address a variety of adverse events that would never even come to the
          attention of the Joint Commission, the State agencies, the media, or the public in general.

                  Other aspects of the Joint Commission’s hospital accreditation program also
          demonstrate it to be grounded in the collegial mode. For example, it has increasingly
          stressed systems and continuous quality improvement. Its surveyors tend to applaud
          hospitals’ improvement efforts with little skepticism of their underlying value.
          Furthermore, its announced surveys tend to be carried out in a collegial manner, focus on
          education, and leave little opportunity for the kind of digging or inspecting that would
          characterize a more regulatory approach.

State agencies have traditionally stressed the regulatory mode. But HCFA,
through the proposed Medicare conditions of participation, is looking for them to
follow the Joint Commission’s lead.

                   According to HCFA’s instructions, State survey agencies prioritize responding to
          complaints and adverse events higher than any other hospital-related activity.25 These
          surveys tend to be unannounced. They aim not only to investigate the event but also to
          respond to public fears about the safety of the hospital. Their focus tends to be on
          ensuring safety and preventing harm. All this grounds State agencies on the regulatory
          side of the continuum. Activities that would be more characteristic of the collegial mode,
          such as performance improvement projects, are not part of the existing Medicare
          certification system for hospitals. (For a summary of our observations of one Medicare
          certification survey conducted by a State agency, see appendix D.)

                  By contrast, the proposed conditions of participation for hospitals, published on
          December 19, 1997, reveal a major move toward the collegial mode.26 They eliminate
          prescriptive, process-oriented conditions in favor of more patient-centered conditions,
          more nearly like those of the Joint Commission.27 They shift away from a focus on
          enforcing minimums toward one stressing improvements. Accordingly, they call for States
          to work in “partnerships for improvement” with the hospitals and they call for hospitals to
          conduct a minimum number of data-driven performance improvement projects.28


Hospital Quality: A Call for Greater Accountability   17                                    OEI-01-97-00050
                   At the core, the proposed changes appear to be constructive ones, because they
          give greater emphasis to actual hospital performance as opposed to mere paper
          compliance and because they will facilitate evaluations of the Joint Commission (because
          the proposed conditions are more nearly parallel to the Joint Commission’s standards).
          Yet, it is noteworthy that the proposed conditions fail to recognize the important role
          State agencies fulfill as front-line, publicly accountable responders to complaints and
          adverse events--situations where a “partnership” approach could be a disadvantage. In
          this context, it is also notable that the conditions suggest there may be a lesser need for
          on-site compliance surveys as hospitals and State agencies work together toward
          improvement. The frequency of such surveys, as we have noted, has dropped significantly
          in recent years.

The emerging dominance of the collegial mode may undermine the existing
system of patient protections afforded by accreditation and certification
practices. It contrasts significantly with the current regulatory emphasis toward
nursing home oversight.

                  The collegial mode holds much promise, with its focus on systems and
          improvements. We do not seek to discredit it. But we find that there is a danger of
          relying too heavily upon it as the basis for external oversight. In this context, we direct
          attention to the recent conclusions of the National Roundtable on Health Care Quality,
          convened by the Institute of Medicine.29 The Roundtable’s conclusions support a
          balanced approach to oversight, one that avoids depending too extensively on any one
          approach. In addressing the collegial approach represented by continuous quality
          improvement initiatives, it indicates that advocates can point to important successes,
          especially “when used as an integral part of a scientific approach to improving clinical
          practice.”30 But the Roundtable also pointed out that minimal data exist to document the
          effectiveness of this approach, and that “even exemplary practitioners have had difficulty
          in disseminating its benefits uniformly throughout their institutions.”

                   In addressing the regulatory approach, the Roundtable underscored that it “is the
          only mechanism we have to protect the public from egregiously poor providers.”31 But
          then it added that this approach tends to be “inflexible” and is poorly suited “to motivate
          those already performing well to strive for even greater achievement.”32

                   This emerging emphasis on a collegial approach to hospital oversight contrasts
          significantly with the highly regulatory approach being taken toward nursing home
          oversight. During 1998, a HCFA Report to Congress, a General Accounting Office report
          on nursing home oversight, a congressional hearing, a presidential press conference, and
          various HCFA announcements have all reiterated the inadequacy of current nursing home
          oversight practices and called for much tougher enforcement.33 Among the many
          initiatives being taken or proposed are those calling for immediate penalties on nursing
          homes violating Federal standards, more “surprise” inspections on weekends and at night,


Hospital Quality: A Call for Greater Accountability   18                                  OEI-01-97-00050
          posting of information on the Internet information about nursing home survey results, and
          background criminal checks on nursing home personnel. The initiatives are presented as
          part of a “crack down” that involves tough, no-nonsense enforcement.34 One finds little
          mention of collegial approaches involving continuous quality improvement.

                   Our point in noting this contrast is not to address the merits of these nursing home
          initiatives or to suggest that they be mirrored in hospital oversight. Rather, it is to
          reinforce the point that regulatory approaches have a place in oversight systems intended
          to protect patients. In our conversations with stakeholders, we have heard that such
          tough approaches toward hospitals are unwarranted because hospitals lack a similar
          history of patient abuses, because they have more peer review and physician involvement,
          and because they have more community involvement. These are reasonable points, but we
          found no data to support a contention that hospitals are safer places than nursing homes,
          and recent studies and media reports reinforce the point that hospitals are, indeed, places
          where inappropriate care can and often does lead to patient harm.



The HCFA does little to hold either the Joint Commission or
the State agencies accountable for their performance in
overseeing hospitals.
The HCFA obtains limited information on the performance of the Joint
Commission or the State agencies.

                  The HCFA has relied on three major mechanisms for obtaining performance
          information: validation surveys, observation surveys, and reports. For the Joint
          Commission, HCFA uses mostly validation surveys, through which State surveyors
          conduct reviews of accredited hospitals after a Joint Commission survey. But for a
          number of reasons the value of these surveys is limited. They are based on different
          standards that are applied at different points in time. The HCFA’s methodology for
          selecting the sample of hospitals to validate fails to consider hospital size, type, or past
          performance.35 Furthermore, validation surveys are costly to conduct. The HCFA does
          not conduct such surveys to monitor the State survey agencies’ performance.

                  The observation surveys, on the other hand, aim to address the fundamental flaws
          of the validation surveys, as HCFA and/or State surveyors accompany Joint Commission
          surveyors to hospitals and observe the survey directly. But HCFA uses these surveys only
          minimally. The HCFA piloted observation surveys with the Joint Commission in 20
          hospitals in 1996 and 1997, but its plans for expansion are unknown. And among the
          HCFA regional offices, charged with overseeing the State agencies, only 6 of 10 reported
          conducting observation surveys to monitor the States’ performance in hospitals.



Hospital Quality: A Call for Greater Accountability   19                                   OEI-01-97-00050
                   Finally, HCFA asks for little in the way of routine reporting from the Joint
          Commission or the State agencies. Indeed, most of what it asks for from the Joint
          Commission is simply scheduling information used to carry out the validation surveys.
          The HCFA asks for little in the way of aggregate data on accreditation survey trends or
          results, complaints or adverse events, or surveyor training. Likewise, on a national basis,
          HCFA obtains little information on the State agencies’ performance specific to hospitals.
          Rather, it gets a rather superficial and blurred picture of the States’ performance across
          provider types, such as nursing homes, home health agencies, and hospitals. Furthermore,
          HCFA does not track trends of such basic information as how many termination notices it
          issues based on the findings of certification surveys of nonaccredited hospitals, although it
          does track actual terminations.36

          The HCFA provides limited feedback to the Joint Commission and the
          States on their overall performance.

                  The HCFA’s feedback to the Joint Commission is negligible. Its main vehicle for
          feedback is its Report to Congress, which provides a summary of the validation surveys.
          Historically, the Report to Congress has been of limited value not only because the survey
          results are dated (sometimes by as much as 3-4 years), but also because it is based on the
          validation surveys themselves, which are fundamentally flawed. Furthermore, HCFA
          designs the report to meet the needs of Congress--indeed, the report itself is mandated by
          Federal law--so its use as feedback to the Joint Commission is secondary.37

                  The HCFA takes little advantage of other opportunities for feedback to the Joint
          Commission. Indeed, its posture to the Joint Commission is more deferential than
          directive. For example, HCFA modeled its revisions of the hospital conditions of
          participation on the Joint Commission’s approach to hospital oversight--both in content
          and tone.38 The HCFA also tends to defer to the Joint Commission when both are at one
          hospital at the same time, investigating a particular incident. In such instances HCFA
          plays no coordinating or information-sharing role.

                  When it comes to the State agencies, HCFA is more directive on the one hand, yet
          gives them little feedback on how they perform their hospital oversight work, on the other.
          For example, HCFA routinely gives State agencies step-by-step guidance on investigating
          and documenting problems in a specific hospital. But it relies on the State agencies
          themselves to assess their own performance, and by working with the HCFA regions, to
          develop and implement their own quality improvement plans.39 This process is called the
          State Agency Quality Improvement Program, or SAQIP. Once or twice a year, HCFA
          distributes a summary report of all the States’ SAQIP activities to each State agency.
          That report provides few meaningful insights into the challenges or successes of any one
          State in overseeing hospitals or other providers, but it devotes considerable attention to
          the SAQIP process itself, and the challenges States face in its implementation.



Hospital Quality: A Call for Greater Accountability   20                                  OEI-01-97-00050
          Public disclosure plays only a minimal role in holding the Joint
          Commission and States accountable.

                   Publicly disclosing information about hospitals and their reviewers conveys an
          assurance that a process exists for the external review of hospitals and that the reviewers
          are also accountable. Public disclosure can also serve as a key motivator for improvement
          on the parts of both the hospitals and the reviewers. Despite progress in general in the
          availability of healthcare information and the rise of consumerism, little public information
          is available on hospitals and their reviewers. The Joint Commission has been a leader in
          making hospital survey results accessible through its performance reports.40 But despite
          its strides in public disclosure, there are significant limits to what the Joint Commission
          discloses. For example, the Joint Commission treats as confidential the details on adverse
          events and their causes as reported by hospitals. Still, the hospital information is in some
          ways more accessible from the Joint Commission than it is from HCFA. While HCFA will
          disclose survey findings--including those associated with adverse events--it lacks a web
          page or central number from which to request such information. By contrast, HCFA has a
          web page devoted to nursing homes that allows visitors to view information on the scope
          and severity of survey findings. By Federal law, nursing homes must post their survey
          findings so they are accessible to residents and their families.41 No such mandate exists for
          hospitals.

                  Likewise, little valuable information is readily available on the performance of the
          external reviewers. For example, while HCFA releases its Report to Congress, its value is
          questionable as it is based on the validation surveys. Similarly, HCFA has little of value to
          disclose on the performance of States agencies: its SAQIP reports lack any State
          identifiers or comparisons and its survey database would need considerable massaging to
          provide insights into a State’s performance. Both the survey data and the SAQIP reports
          are available upon request.




Hospital Quality: A Call for Greater Accountability   21                                  OEI-01-97-00050
                              RECOMMENDATIONS

                  Hospitals are places where patients routinely receive valuable, even life-saving
          services. Yet, as many studies have shown, they are also places where patients can be
          exposed to unnecessary harm.42 External review, as a complement to hospitals’ own
          internal review systems, can serve as a vital safety valve that minimizes the likelihood of
          such harm and enhances quality. The HCFA relies upon the Joint Commission and State
          survey agencies as its primary agents in carrying out external reviews to help protect
          Medicare beneficiaries when they rely upon hospital services. Both make important
          contributions that HCFA would be hard-pressed to match.

                  Given the degree of HCFA’s dependence on these external agents, it is important
          that HCFA provides leadership to address the shortcomings we have identified, holding
          the Joint Commission and State agencies more accountable for their performance.
          Through one guiding principle and two recommendations, directed to HCFA, we set forth
          ways in which it can provide this leadership.

                  In our recommendations we call upon HCFA to devote more concerted attention
          to hospitals and their external quality review systems. We recognize that in an
          environment of limited resources and competing priorities, such attention is not easily or
          readily provided. In that context, we present the recommendations as a blueprint for
          action that can be carried out over a reasonable period of time.

                  Through the guiding principle and recommendations, we call upon HCFA to lead
          and stay attuned to important nuances involving the relationships among HCFA, the Joint
          Commission, the State agencies, and the hospitals themselves. In this context, we stress
          that while HCFA has authority and leverage it can assert, it must approach the Joint
          Commission and State agencies not as subordinates in a chain of command, but as partners
          sharing a commitment to high-quality hospital care. Similarly, we stress that external
          review generally should be conducted in ways that minimize the regulatory burden on
          hospitals and seek to complement hospitals’ own internal quality review efforts.




Hospital Quality: A Call for Greater Accountability   22                                  OEI-01-97-00050
GUIDING PRINCIPLE. The HCFA, as a guiding principle,
should steer external reviews of hospital quality so that they
ensure a balance between collegial and regulatory modes of
oversight.
                  Both approaches have ardent supporters, with consumer advocates urging more
          regulatory types of oversight and professional groups stressing the advantages of collegial
          approaches. From HCFA’s standpoint, it is important to recognize that both approaches
          have value and that a credible system of oversight must reflect a reasonable balance
          between the two. Thus, as HCFA moves toward an increasingly data-driven system, as
          reflected in the proposed conditions, it should ensure that such systems are used both as
          means to foster improvement as well as means to enforce minimums. In other words, data
          present opportunities for both sides of the continuum. Well-designed data systems could
          include elements that, for example, elevate standards of care overall as well as identify
          outliers requiring interventions.

                 In aiming to achieve balance between the collegial and regulatory modes of
          oversight, it is instructive to note the conclusion of a recent case study of regulatory
          approaches of the Occupational Safety and Health Association (OSHA):

                     It has become cliche for critics of regulation to tout increased cooperation as a
                     means of curing what they perceive ails the regulatory process. While cooperation
                     holds promise as an effective enforcement technique, the policy literature suggests
                     that caution is due. Although a mix of cooperation and punishment is likely to be
                     an optimal enforcement policy, the literature provides no clear guidance
                     concerning what policy is optimal. OSHA’s situation confirms that agencies
                     should maintain a viable enforcement program while cautiously experimenting with
                     additional cooperative approaches.43

          As we noted earlier, the conclusions of the National Roundtable on Health Care Quality
          also reinforce the theme of balance. They suggest that while both collegial and regulatory
          approaches have advantages, neither is backed with sufficient data to warrant a
          concentration on one at the expense of the other. Thus, as the overall system of quality
          oversight becomes increasingly oriented to the collegial side of the continuum, the risks
          begin to mount, with potentially significant consequences to patients. The Roundtable, it
          is important to remember, stated that regulation “is the only mechanism we have to
          protect the public from egregiously poor providers.”44 The Prospective Payment
          Assessment Commission reinforced this theme of balance, noting that “continuous quality
          improvement activities need to be accompanied by effective methods to identify and
          monitor providers of questionable performance.”45




Hospital Quality: A Call for Greater Accountability   23                                   OEI-01-97-00050
                  We recognize no precise definition of what represents a balance between collegial
          and regulatory approaches exists. Balance depends on judgment and continuing
          assessments of the thrust and impact of the different components of external quality
          review. A balanced system, in our view, will involve the continued presence of on-site
          hospital surveys, both announced and unannounced; an ongoing capacity to respond
          quickly and effectively to complaints and adverse events; further development and
          application of standardized performance measures; and, even though it is not much in
          evidence at this time, a mechanism for conducting retrospective reviews of the
          appropriateness of the care received by hospitalized patients. Each of these approaches
          can add value and a measure of patient safety. Until much more compelling evidence can
          be mustered, no one approach should dominate. Accordingly HCFA should view with
          some concern the emerging dominance of the collegial mode.

                 In its steering role, HCFA must develop a broad perspective so that it can clearly
          determine not only how the external review systems as a whole are functioning but also
          when and how to adjust them. Thus, it is particularly important that, as a general point,
          HCFA recognize the distinctive strengths and limitations of both the Joint Commission
          and the State agencies, which we elaborate on below.

Recognize the inherent strengths and limitations of accrediting bodies and the
State agencies.

                 Each of these entities contributes to the external review of hospitals. But they
          contribute differently. If HCFA is to steer effectively, it must act in accord with the
          inherent strengths and limitations of these two types of bodies.

                  Accreditation, first of all, is a form of self-regulation.46 The Joint Commission’s
          board, for example, is dominated by members closely associated with the hospital
          industry. Notwithstanding the presence of non-industry members on its board or of
          various advisory bodies or of certain public purposes it may fulfill, it is primarily
          responsive to the interests of entities it accredits. In this context, it is important to view
          the Joint Commission as an entity closely connected with the hospital industry and having
          greater credibility with that industry than any governmental entity is likely to have. That
          connection makes the Joint Commission inherently inclined to tilt toward the collegial side
          of the oversight continuum we presented. Working cooperatively with its hospital
          constituency and drawing on its considerable expertise on hospital practices , it can
          provide leadership in defining accreditation standards and helping hospitals achieve them.
          It can (and must) play a certain regulatory role as well, but if it begins to tilt in this
          direction, it will likely encounter greater resistance from its core constituency that could
          undermine its efforts to educate and elevate.

                  State agencies, on the other hand, are public bodies (usually health departments)
          with traditional regulatory responsibilities. Within their States, they are accountable to


Hospital Quality: A Call for Greater Accountability   24                                   OEI-01-97-00050
          executive and legislative leaders who expect them to protect consumers. This is especially
          apparent whenever there is a high profile adverse event or major complaints involving a
          hospital. In such cases, elected officials as well as the local media are likely to look to the
          State agency as a front line of response in determining what went wrong and what to do
          about it. Thus, State survey agencies are inherently inclined to tilt toward the regulatory
          side of our continuum. That is not to suggest that they can not and do not play a role in
          fostering improvements through a collegial orientation, but any substantial movement in
          that direction is likely to conflict with their longstanding role in enforcing minimum
          standards and ensuring patient safety.

                   Thus, as HCFA exerts its steering role in years ahead, it would be sound policy for
          it to look to the Joint Commission to tilt (but not too far) toward the collegial end and the
          State survey agencies to tilt (but not too far) toward the regulatory end. Such a frame of
          reference can be helpful as HCFA weighs specific policy and operational choices. For
          example, as HCFA incorporates, through its proposed conditions, certain aspects of the
          Joint Commission’s approach to oversight, it should maintain the primacy of the State
          agencies’ role as front-line responders to complaints and adverse events, and all that that
          role entails, such as probing and challenging approaches to surveys. Furthermore, it
          would make sense for HCFA to support the Joint Commission’s sentinel event policy,
          which treats adverse events confidentially and as opportunities for improvement, as long
          as the State agencies still responded to such events in a way that held hospitals publicly
          accountable. Similarly, it would make sense to continue to support explorations for data-
          driven measures of outcome that someday could provide an important basis for external
          quality review, as long as that vision does not undermine a strong, continued role for on-
          site inspections. It is likely, after all, to be some time before the development and
          application of data-driven systems of oversight are sufficiently sophisticated to justify a
          deemphasis of on-site surveys.



RECOMMENDATION 1. The HCFA should hold the Joint
Commission and State agencies more fully accountable to
HCFA for their performance in reviewing hospitals.
                  The Joint Commission is a private entity accountable to its governing board and to
          the hospitals that pay for its accreditation services. The State survey agencies are public
          bodies accountable to their States’ governors and legislatures. But in carrying out their
          external reviews of hospitals, both the Joint Commission and State agencies are also
          accountable to HCFA for services they are performing on behalf of Medicare and
          Medicaid beneficiaries. They must balance this line of accountability with their own
          reporting channels to their respective board and legislatures. And while HCFA should be
          respectful of these channels, it should, as we have indicated, be ready to exert stronger
          leadership to ensure that Federal interests are upheld.


Hospital Quality: A Call for Greater Accountability   25                                    OEI-01-97-00050
                  In accord with the accountability framework we have developed for this inquiry we
          specify below the kind of operational steps HCFA should take in (1) obtaining
          information, (2) providing feedback, and (3) disclosing information.

1. a. Revamp Federal approaches for obtaining information on the Joint
Commission and State agency performance.

          Validation Surveys. The HCFA should deempahsize and perhaps even phase out
          validation surveys as a tool for overseeing the Joint Commission’s performance. Our
          findings revealed fundamental limitations associated with this approach to accountability.
          In our assessment the limits are substantial and may well be too basic to correct. The
          HCFA should seek to identify more cost-effective approaches that are less intrusive to
          hospitals. Given the current congressional mandate for validation surveys, HCFA would
          have to seek legislation to achieve the intent of this recommendation.

                  In the case of State surveys of nonaccreditated hospitals, HCFA has not been
          conducting validation surveys as a means of obtaining performance information on the
          States’ expectations. We recommend that it not initiate such surveys, even if the
          resources become available.

          Observation Surveys. The HCFA should give serious consideration to incorporating
          these surveys as a major tool of oversight of both the Joint Commission and State survey
          agencies. The great advantage of accompanying the Joint Commission or State surveyors
          during a hospital visit is that it provides direct and immediate information on the
          performance of both the surveyors and the hospitals. The HCFA conducted a pilot of this
          process through 20 observation surveys--during which HCFA and State officials observed
          the performance of Joint Commission surveyors. But it has yet to issue its evaluation of
          the experience. This lack of followup represents a significant missed opportunity, one that
          should be addressed.

                 In further consideration and/or testing of observation surveys, HCFA should
          consider adapting two features that were not part of the initial pilot. One would be to
          conduct some such surveys on an unannounced basis. This could add an important
          element of balance to the approach. A second feature would be to allow the observing
          surveyors to participate to some degree in the survey process. It appears untenable and
          unnecessary to us to have skilled, experienced surveyors from State agencies (or HCFA)
          serving as silent witnesses when they could contribute along the way.

          Performance Reports. The HCFA should obtain more timely and useful performance-
          related information, both from the Joint Commission and State survey agencies. This is
          particularly important with respect to the Joint Commission, from which it obtains little
          ongoing information. We suggest that HCFA work with the Joint Commission to develop
          a set of specifications for limited, but regular reporting, preferably through electronic


Hospital Quality: A Call for Greater Accountability   26                                 OEI-01-97-00050
          format. We suggest that such reporting be presented in a manner that facilitates an
          understanding of trends and at a minimum include information on the following:

            <	       On-site surveys (such as the number of triennial, random unannounced, and
                     unscheduled surveys)
            <	       Survey results (for example, the number of hospitals achieving each level of
                     accreditation, accreditation scores, most common problems identified, and the
                     number and types of follow-up actions, by survey type)
            <	       Complaints (such as the number and types received overall, then broken down to
                     reflect those received centrally and on-site, and finally the number and type of
                     complaints resulting in recommendations for improvement)
            <	       Adverse events (for example, the number and type of sentinel event reports, the
                     number of hospitals placed on Accreditation Watch, the number resulting in a
                     change of accreditation status because of the sentinel event, and the number
                     resulting in recommendations for improvement)
            <	       Performance measures (such as the number of hospitals participating in the Joint
                     Commission’s performance measurement programs: Oryx and Oryx+)

                  We suggest that each year, this information be compiled and presented in an annual
          report that facilitates year-to-year comparisons. That report should be submitted to
          HCFA and to Congress. It should also be available on the Internet.

                  With respect to State survey agencies, HCFA already requires considerable
          reporting through its Online Survey Certification and Reporting (OSCAR) system. It
          includes some but not all of the categories of information noted above. We suggest that
          HCFA reexamine the OSCAR reporting system to ensure that at a minimum it include
          categories of information parallel to those set forth above. We also suggest that HCFA
          reexamine the reporting that the States currently provide on their improvement projects,
          with the intent of generating more precise and comparable information.

                  Finally, if HCFA were to incorporate the observation surveys as a major tool of
          oversight, it would be important to specify the extent and type of information to be
          collected from those surveys. It would be essential that data from these surveys be fed
          into a central data base that HCFA could draw upon in giving performance feedback to
          the Joint Commission and State survey agencies.

1. b. Strengthen Federal mechanisms for providing performance feedback to the
Joint Commission and State agencies.

          Performance Assessments. The HCFA should provide timely, ongoing feedback to the
          Joint Commission and State survey agencies on the basis of information obtained through
          the observation surveys (which we recommend) and, in the case of the Joint Commission,
          through the validation surveys (as long as they remain). Such feedback is a vital element


Hospital Quality: A Call for Greater Accountability   27                                 OEI-01-97-00050
          that is now almost completely missing in the system of external review. In some fashion,
          the feedback should follow each observation visit or validation survey. It should also be
          provided on a cumulative basis, drawing on a number of such visits or surveys. Ideally,
          such cumulative feedback would be part of an annual report, paralleling the annual report
          we suggest that State agencies and the Joint Commission submit to HCFA.

                  The HCFA should also give attention to feedback in the form of special alerts
          based on accumulated information revealing a problematic pattern of performance by the
          Joint Commission or by individual States. In such cases, the Joint Commission or the
          States involved should be expected to indicate how they will respond and correct the
          situation identified by HCFA.

                  All such performance feedback noted above, as well as the performance reports
          noted earlier, could be part of the annual report to Congress that is mandated by statute.
          While that mandate applies only to the Joint Commission, it would be helpful to
          incorporate in that report a full array of information applying to nonaccredited as well as
          accredited hospitals. That way, Congress and the interested public could gain a better
          appreciation of the overall adequacy of external systems for reviewing hospital quality.

          Policy and Procedural Guidance. Our focus is on guidance to the Joint
          Commission. Given that HCFA now provides minimal such guidance, given that
          the Joint Commission is the primary external reviewer for about 80 percent of the
          hospitals in the country, and given our call for a more balanced system of
          oversight, we recommend that HCFA negotiate with the Joint Commission to
          achieve some redirection in Joint Commission priorities and practices. We suggest
          that this can be done in a manner that respects the Joint Commission’s
          considerable expertise on accreditation practices, yet calls for the Joint
          Commission to accommodate public purposes associated with its special deemed
          status. To the extent that HCFA continues to rely on the Joint Commission, it
          should negotiate the following to help achieve a more balanced system of
          oversight:

                     1. Conduct more unannounced surveys, both regular surveys and surveys made
                     in response to complaints. Further, unlike the Joint Commission’s current
                     “unannounced” surveys, we suggest that such surveys involve no prior notice at all
                     for the hospitals. We recognize that such practice may add some operational
                     difficulties to the survey process--for example, records and policies may not be
                     assembled and ready for surveyors. However, it is certainly plausible that such an
                     on-the-spot review would offer insights that an announced survey would not and
                     that it would add a measure of public credibility to the entire accreditation process.




Hospital Quality: A Call for Greater Accountability   28                                      OEI-01-97-00050
                     2. Make “accreditation with commendation” a more meaningful category or
                     do away with it altogether. This top level of accreditation tends to suggest a
                     greater level of distinction than is warranted by the underlying scoring system.
                     Hospitals use it for marketing purposes to suggest a degree of excellence that can
                     be misleading to the public. We suggest that the degree of rigor called for in
                     attaining this designation be increased or that the designation be dropped.

                     3. Introduce more random selection of records as part of the survey process.
                     Allowing hospitals to select records for review by the surveyors introduces too
                     much possibility for manipulation and undermines the credibility of the process.
                     Here is a practice where the move toward collegiality seems to go too far. It is
                     essential that surveyors gain a balanced assessment of hospital practices, not one
                     that is likely to enhance the positives.

                     4. Provide surveyors with more contextual information about the hospitals they
                     are about to survey. Background information on organizational or ownership
                     changes involving the hospital, on developments in the local healthcare
                     marketplace, and on other such matters can help surveyors ask more probing and
                     challenging questions during their visits. The goal of fostering consistency in
                     surveyor practices should not be pursued at the expense of vital contextual
                     information that can help surveyors focus on the distinctive features and situations
                     at each hospital.

                     5. Jointly determine some of the year-to-year priorities. For instance, the Joint
                     Commission determined at one point that restraint reduction--certainly a desirable
                     objective--would be a priority. We suggest that HCFA could play a role in
                     suggesting such priorities. Based on our inquiry, a good initial priority would
                     focus on hospital privileging and credentials verification practices--an area where
                     we found Joint Commission reviews to be too superficial. One aspect of this
                     inquiry could be further attention to hospitals’ compliance with Federal
                     requirements to report to the National Practitioner Data Bank.

                     6. Conduct more rigorous assessments of hospitals’ internal continuous quality
                     improvement (CQI) efforts. Within the hospital community, the Joint
                     Commission has helped raise awareness and interest in CQI efforts. But the
                     survey process raises few questions about such efforts. The time has come to raise
                     the bar and subject hospitals to greater scrutiny in terms of the purpose, methods,
                     and consequences of their CQI efforts.

                     7. Enhance the capacity of surveyors to respond to complaints as part of the
                     survey process. The rigid schedule of surveyors leaves little opportunity to review
                     a complaint, either in its own right or as a possible indicator of a broader problem.
                     To the extent that information about complaints can be provided to surveyors prior


Hospital Quality: A Call for Greater Accountability   29                                     OEI-01-97-00050
                     to the visit, such opportunities could be enhanced. As a complementary approach,
                     the Joint Commission could also give more attention during its triennial survey to
                     hospitals’ internal complaint systems and whether they serve as a means of
                     identifying broader, systems problems.

1. c. Assess periodically the justification for the Joint Commission’s deemed-
status authority.

                 Once a hospital is accredited by the Joint Commission, it is deemed to meet the
          Medicare conditions of participation. This delegation of authority to the Joint
          Commission is granted by Congress, not by HCFA. As such, it is a unique authority held
          by no other accrediting body in the healthcare field.

                  We are not addressing whether the Joint Commission warrants this special
          authority. But we do suggest the granting of this unique status should not be for
          perpetuity, without accountability for performance. The HCFA already has the regulatory
          authority to review the deeming authority when validation survey results reach a certain
          disparity rate.47 That rate has never been reached, however. Accordingly, we call for
          HCFA from time to time to assess whether the Joint Commission’s performance continues
          to warrant its unique deeming authority and to report its conclusions to Congress as part
          of an annual report or otherwise. Any change in this status would, of course, depend
          upon congressional action.

                 If HCFA were to move in the direction we call for here, it would be particularly
          important for it to collect information and provide feedback--as we call for in the
          preceding recommendations. In fairness, it would also be important that it communicate
          in advance to the Joint Commission what its own criteria would be for determining
          adequate performance. This is a matter that it could profitably address with the Joint
          Commission itself, as well as with other parties.

1.d. Increase public disclosure.

                  The HCFA is in a unique position to give the public information on the
          performance of individual hospitals and also of entities that oversee those hospitals.
          Ultimately HCFA is responsible for the oversight of hospitals and it should be committed
          to making every aspect of oversight as meaningful and effective as possible. One way to
          accomplish that is to make results widely available to the public through the Internet and
          other appropriate mechanisms.

                  Through greater disclosure of information, HCFA can reinforce that hospitals and
          external reviewers of hospitals are accountable to the general public as well as to the
          government.48 Disclosure on the Internet can be a particularly effective tool in this regard
          as the media, advocates, and other interested parties can draw on it to inform wider


Hospital Quality: A Call for Greater Accountability   30                                   OEI-01-97-00050
          audiences. Also, such disclosure can be helpful to healthcare purchasers interested in
          quality-of-care issues.

                  The HCFA should consider putting some hospital-specific information on the
          Internet in a way that facilitates comparisons among hospitals and gives a sense of what
          each oversight body does and what each has found at a given hospital. The HCFA has
          already made strides in making information on nursing home survey results available.
          Perhaps that can serve as a model.

          Performance of Hospitals. The HCFA could make any or all of the following
          performance information available by hospital on its Web site: the most recent survey date,
          survey results, and information on complaints or adverse events.

          Performance of the Joint Commission and State Agencies. In previous
          recommendations, we call for both the Joint Commission and State agencies to submit
          regular reports to HCFA. The HCFA could easily post these reports on its Web site, or
          require State agencies and the Joint Commission to post the reports on their Web sites.



RECOMMENDATION 2. The HCFA should determine the
appropriate minimum cycle for conducting certification
surveys of nonaccredited hospitals.

                  The backlog for routine surveys of nonaccredited hospitals is large and it is
          growing. And, unlike nursing homes and home health agencies, hospitals lack a
          congressionally mandated cycle for surveys. Thus, nonaccredited hospitals are subject to
          limited external review. Furthermore, the proposed conditions of participation suggest an
          even lesser role for routine certification surveys.49 Current policy gives priority to
          responding to complaints and adverse events in hospitals over routine surveys, which we
          endorse. But by determining an appropriate minimum cycle for hospital surveys, HCFA
          will increase the attention hospital quality issues receive and improve oversight
          comparability from State to State.




Hospital Quality: A Call for Greater Accountability   31                                 OEI-01-97-00050
   COMMENTS                                  ON       THE   DRAFT           REPORTS

                 Within the Department of Health and Human Services, we received comments on
          our four draft reports from HCFA. Outside of the Department, we solicited and received
          comments from the Joint Commission, the Association of Health Facility Survey Agencies,
          the American Osteopathic Association, the American Hospital Association, the American
          Association for Retired Persons, the Service Employees International Union, the National
          Health Law Program, and Public Citizen’s Health Research Group.

                   We include the complete text of these comments in appendix E. Below we
          summarize the comments and, in italics, offer our responses. First we focus on the
          comments offered by HCFA, the Department component to which we directed all of our
          recommendations. Second, we turn to the perspectives of the Joint Commission and of
          the Association of Health Facility Survey Agencies, which represents the State survey and
          certification agencies. The HCFA relies upon these agencies and the Joint Commission as
          the major agents of external review of hospital quality. Finally, we present the responses
          of other key stakeholder organizations.

HCFA Comments

                  The HCFA supported our findings and reacted to our recommendations as an
          opportunity to make significant improvements in hospital oversight and to see that these
          changes fit in with its broader goals of performance measurement. It offered a detailed
          hospital quality oversight plan, which incorporated our many recommendations, and it
          presented a performance measurement strategy based on developing standardized hospital
          performance measures that are consumer- and purchaser-driven and that are in the public
          domain.

                 The HCFA’s oversight plan affirmed its commitment to more frequent State
          surveys of nonaccredited hospitals, to strengthened oversight of both the State agencies
          and the Joint Commission, and to balancing the collegial and regulatory approaches to
          oversight. Toward the latter end, it indicated that it will look to the Medicare Peer
          Review Organizations, with which it contracts, as its chief agents in pursuing collegial
          approaches to advance the quality of care in hospitals. It will rely upon the Joint
          Commission and in particular on its on-site surveys as a key part of the regulatory
          framework needed to enforce compliance with Medicare standards.

                 We find HCFA’s detailed action plan to be highly responsive to the shortcomings
          we identified in hospital quality oversight and to our specific recommendations. This
          plan sets forth an agenda that can be of great significance in improving patient safety
          and improving the quality of patient care.


Hospital Quality: A Call for Greater Accountability    32                               OEI-01-97-00050
                  With respect to HCFA’s comments on how it will foster a balance between
          collegial and regulatory approaches, we urge that HCFA give adequate recognition to
          the important regulatory role that State survey agencies have to play not only in
          conducting surveys but also in responding to complaints and adverse events. We agree
          that Joint Commission on-site surveys represent an important regulatory mechanism that
          should be more fully used, but note that as an accrediting body that is engaged in
          standard-setting and that has close ties with the hospital industry, the Joint Commission
          can also serve as an important force in quality improvement.

Joint Commission and Association of Health Facility Survey Agencies Comments

                  The Joint Commission agreed with the principle of balance between collegial and
          regulatory approaches, but felt that our concerns about the emerging dominance of the
          collegial approach were unfounded. It also took issue with our findings that Joint
          Commission surveys were unlikely to detect substandard patterns of care or individual
          practitioners with questionable skills and that the Joint Commission devotes little emphasis
          to complaints and treats major adverse events as opportunities for improvement. It noted
          that some of the specific suggestions we made for improving the survey process have
          already been put in effect and that all the remaining ones are under consideration. It also
          expressed support for our recommendation that HCFA obtain more useful and timely
          performance-related information from the Joint Commission.

                  We stressed the principle of balance because there is insufficient evidence to
          support an emphasis on either the collegial or regulatory approach. We cited the
          conclusions of the National Roundtable on Health Care Quality and other sources as
          support for our conclusion. We still conclude that Joint Commission surveys are unlikely
          to detect substandard patterns of care, such as inappropriate surgeries or high
          complication rates, or to identify individual practitioners with poor skills. (In this
          regard, we found the on-site process of reviewing hospital privileging and credential
          verification procedures particularly lacking.) In the text, we spell out in some detail the
          bases for these findings. Similarly, we believe that the evidence is clear that the response
          to complaints is a relatively minor part of the accreditation process and that adverse
          events are treated as opportunities for improvement.

                  The Association of Health Facility Survey Agencies agreed with our assessment of
          the current system of hospital oversight. It devoted particular attention to our discussion
          of validation and observation surveys. It indicated that the aim of validation surveys is not
          to evaluate the Joint Commission but rather to validate hospital compliance with Medicare
          standards. Further, on the basis of the experience of an Association member who
          participated in an observation survey, it expressed reservations concerning the
          effectiveness of this approach in improving patient care and outcomes. Finally, it
          supported the posting on websites of in-depth information on how hospitals fared as a
          result of survey visits and complaint investigations.


Hospital Quality: A Call for Greater Accountability   33                                  OEI-01-97-00050
                  We appreciate the Association’s supportive comments. Regarding the
          Association’s concerns about validation surveys, we found that they have served as the
          single most important mechanism for assessing Joint Commission performance. We note
          that HCFA, in its comments to our report, indicated that it will clarify that the purpose of
          validation “is to evaluate the performance of the accrediting body in assuring that the
          Secretary’s standards are met or exceeded.” We urge that the Association consider the
          significant limitations we addressed about the effectiveness of the validation surveys and
          examine further the potential of observation surveys as a more cost-effective and timely
          tool of oversight. We recognize that further experimentation with this approach is
          required, but suggest that it may well be worthwhile.

Comments of Other External Organizations

                  Overall, the other stakeholder organizations expressed considerable support for
          our findings and recommendations. Yet, they also noted a number of concerns. The
          American Hospital Association took issue with how we applied the regulatory and
          collegial concepts and stressed that hospital liability concerns impede the kind of public
          disclosure we recommend. The American Osteopathic Association noted reservations
          about more unannounced surveys and suggested that a closer review of medical care
          during on-site surveys would offer better value. The American Association of Retired
          Persons agreed with the thrust of our recommendations.

                  The Service Employees International Union, the National Health Law Program,
          and Public Citizen’s Health Research Group each called for even stronger Federal actions
          than we recommended. These included a stronger emphasis on regulatory approaches,
          greater reliance on unannounced surveys, more extensive public disclosure, and firmer
          HCFA action in overseeing the Joint Commission performance and in reassessing its
          deeming authority.

                  As HCFA carries out its hospital quality oversight plan, we suggest that it take
          into account the perspectives of these various stakeholders. They express concerns and
          offer suggestions that we often heard expressed during our inquiry. We believe that our
          recommendations set forth a balanced course of action that draws to some degree on the
          insights of each of these stakeholders and that, overall, can substantially improve
          hospital quality oversight.




Hospital Quality: A Call for Greater Accountability   34                                  OEI-01-97-00050
                                                                                       APPENDIX A



                           Medicare Conditions of Participation

         The Medicare Conditions of Participation (COP) were first published in 1966 and revised in 1986 (42
C.F.R. 482.1-482.66). On December 19, 1997, HCFA published a proposed COP for hospitals ( 62 Fed. Reg.
66,726). On July 2, 1999, it published an interim final rule concerning patients’ rights (64 Fed. Reg. 36,070).
Below are the components of the existing COP for non-specialty hospitals from 1986, followed by the components
of the proposed COP.

              Existing COP                                             Proposed COP
Subpart A- General Provisions                         Subpart A- General Provisions

Provision of emergency services by                    Patient Rights (issued as an interim final rule on July 2,
        nonparticipating hospitals                    1999)

Subpart B- Administration                             Subpart B- Patient Care Activities

Compliance with Federal, State, and local laws        Patient Admissions, assessment, and plan of care

Governing Body                                        Patient care

                                                      Quality assessment and performance improvement

Subpart C- Basic Hospital Functions                   Diagnostic and therapeutic services or 

                                                               rehabilitation services
Quality assurance
                                    Pharmaceutical services
Medical staff
                                        Nutritional services
Nursing services
                                     Surgical and anesthesia services
Medical record services
                              Emergency services
Pharmaceutical services
                              Discharge Planning
Radiologic services

Laboratory services
                                  Subpart C- Organizational Environment
Food and dietetic services

Utilization review
                                   Administration of organizational environment

Physical environment
                                 Infection control

Infection control
                                    Human resources

                                                      Physical environment

Subpart D- Optional Hospital Services                 Life safety from fire

                                                      Blood and blood products transfusions

Surgical services                                     Potentially infectious blood and blood products

Anesthesia services                                   Utilization review

Nuclear medicine services
Outpatient services
Emergency services
Rehabilitation services
Respiratory care services



Hospital Quality: A Call for Greater Accountability   35                                          OEI-01-97-00050
                                                                                             APPENDIX B


                 Roles of Accreditation and Medicare Certification


                                  Joint Commission                            State Survey Agency
 Element                           (Accreditation)                           (Medicare Certification)
 Announced             C   Core of accreditation process            C Low priority
 Surveys               C   Routine presence on a 3-year cycle       C Elapsed time between surveys growing
                       C   Collegial                                C Medicare Conditions of Participation
                       C   Tight structure                            outdated
                       C   Limited opportunity to follow leads      C Survey results fail to make meaningful
                           or respond to complaints                   distinctions across hospitals
                       C   Dynamic standards
                       C   Spurs hospital improvement
                       C   Reduces risk
                       C   Unlikely to identify patterns of
                           substandard care or individual
                           practitioners with questionable skills
                       C   Survey results fail to make
                           meaningful distinctions across
                           hospitals

 Random                C Used for about 5 percent of                C Not applicable
 Unannounced             accredited hospitals per year
 Surveys               C Not truly unannounced; hospitals get
                         24-48 hours notice
                       C Focuses on five areas commonly
                         found out of compliance

 Response to           C Approach is oriented toward                C Core activity with higher priority than
 Adverse                 research and prevention                      routine hospital certification or validation
 Events                C Relies on self-reporting                     surveys
                       C Ensures hospital confidentiality           C Includes authority to respond to events in
                       C No public accountability                     accredited as well as nonaccredited hospitals
                                                                    C Publicly accountable

 Responses to          C Considered adjunct to triennial            C Core activity with higher priority than
 Complaints              surveys                                      routine hospital certification or validation
                       C Surveys present limited opportunities        surveys
                         to follow-up on complaints                 C Includes authority to respond to events in
                       C No public accountability                     accredited as well as nonaccredited hospitals
                                                                    C Publicly accountable

 Standardized          C Lacks uniformity, thus comparability       C Not applicable
 Performance             across hospitals
 Data                  C Not linked to accreditation
Source: Office of Inspector General, The Role of Accreditation (OEI-01-97-00051) and The Role of
Medicare Certification (OEI-01-97-00052).


Hospital Quality: A Call for Greater Accountability          36                                         OEI-01-97-00050
                                                                                APPENDIX C



                                              Methodology


The HCFA

                We obtained dates of certification surveys from HCFA’s Online Survey
   Certification and Reporting System (OSCAR). The HCFA authorizes States to update and
   maintain this database with survey information. We extracted survey data pertaining to the
   frequency of certification surveys. We subsequently verified the accuracy of our extraction by
   comparing it to on-line OSCAR system information to ensure the dates we used corresponded
   to routine certification surveys, rather than complaint investigations or other types of surveys.
   We are satisfied that our information is as accurate as HCFA’s OSCAR system.

                Additionally, we selected 4 States (California, Kansas, Minnesota, and Texas) that
   contain over 50 nonaccredited hospitals and represented different geographic regions of the
   United States. We then examined the OSCAR data for those States in greater detail. We
   verified the operational status of the nonaccredited hospitals in those States that had not been
   surveyed in over 5 years using the American Hospital Association’s 1997 Hospital Guide.

                We also interviewed staff and managers at each HCFA regional office and the
   central office. We reviewed a variety of HCFA documents, including budget call letters,
   reinvention materials, and reports to Congress, among others.


The State Survey and Certification Agencies

                 In August 1997, we mailed a pretested survey to the hospital certification agencies
   in the 50 States and the District of Columbia. The response rate for this survey was 100
   percent. The State survey addressed four areas of hospital quality oversight: private
   accreditation of hospitals, Medicare certification of hospitals, HCFA oversight of State
   certification agencies, and State licensure of hospitals. We interviewed State officials on the
   telephone or in person as well.


Accrediting Organizations




Hospital Quality: A Call for Greater Accountability   37                                OEI-01-97-00050
                                                                              APPENDIX C


                We interviewed officials from both the Joint Commission on Accreditation of
   Healthcare Organizations and the American Osteopathic Association. We also reviewed
   documents from both organizations, including mission statements, accreditation manuals,
   policies, and hospital survey files. We requested and received aggregate data from the Joint
   Commission reflecting its recent hospital survey activity. All Joint Commission data are
   presented as reported by the Joint Commission, unless otherwise noted. For purposes of this
   inquiry, we focused our analysis on the Joint Commission.


Survey Observations

                Based on schedules of upcoming triennial surveys, we identified nine hospitals in
   which to observe triennial Joint Commission surveys. Of those, we were able to observe
   seven. In two cases, the hospitals declined the Joint Commission’s request that we be allowed
   to observe. The 7 hospitals varied in size from 80 to 775 beds, represented both teaching and
   community hospitals, and were located in different areas of the country (both rural and urban).
   We also observed one random unannounced Joint Commission survey. Although we observed
   different teams of surveyors, the survey agenda, lines of inquiry, and tone were consistent
   across the surveys, which were conducted in accordance with Joint Commission policy, based
   on review of survey manuals and interviews with representatives of the Joint Commission.
   Finally, we observed a certification survey and parts of two complaint investigations performed
   by State surveyors under HCFA’s auspices.


Stakeholder Interviews

                We interviewed representatives of organizations we considered to be stakeholders
   in hospital oversight. These stakeholder organizations included a union, professional
   organizations, hospital associations, and consumer groups.


Other Documents

                In addition to the documents referenced above, we reviewed statutes and
   regulations and a variety of articles from newspapers, journals, magazines, and newsletters.


A Systemic Review

Hospital Quality: A Call for Greater Accountability   38                              OEI-01-97-00050
                                                                            APPENDIX C




               In this report we focus on the system of external review considered as a whole.
   We address issues that have a significant bearing on how well that system works. In so doing,
   we draw on a wide body of evidence from the sources we noted above. Our findings and
   recommendations represent our conclusions based on our assessment of this evidence. We
   present them with the intent of providing helpful directions on how HCFA, the Joint
   Commission, and the State agencies can play a more effective role in protecting patients and
   improving quality.




Hospital Quality: A Call for Greater Accountability   39                            OEI-01-97-00050
                                                                               APPENDIX D



                                              Certification Survey

        During the course of our inquiry, one Office of Inspector General (OIG) analyst observed
   one Medicare certification survey. What follows is a summary of the observations from that
   survey.

Background

         The survey was of a 34-bed nonaccredited county hospital located in a rural area. The
   hospital had recently undergone major renovations but still used parts of the older buildings,
   which were at least 50 years old. Staff could pass from the renovated parts of the building to
   the older parts, and construction was still underway. Plastic strips hung in doorways to
   minimize the dust from the ongoing renovations. The pharmacy and operating rooms were
   housed in the older building, which was plagued by roof leaks and a finicky cooling system,
   leaving the area humid and musty. Warehouse style buildings in the back of the hospital
   housed the medical records and some administrative offices.

         The hospital came under new management 2 years prior to the observed survey. During
   the time of the survey, the hospital had an average daily census of 13, an increase over prior
   years. Most of the surgeries performed at this hospital were hernia repairs, cholecystectomies,
   or gynecological procedures. Since the renovations, the hospital experienced an increase in
   deliveries.

         Three experienced nurse surveyors and one surveyor in training (also a nurse) surveyed
   this hospital. One served as team leader. All of the surveyors had clinical nursing experience.
   At least one surveyor had been at the hospital previously. Before arriving at the hospital, they
   reviewed the State’s historical files of compliance and complaints for this hospital. Thus they
   were familiar with the hospital’s history of compliance problems. They were also aware of the
   hospital’s recent scandals with its medical staff. For example, one physician on staff was
   imprisoned for narcotics abuses and another lost his medical license due to a pattern of
   unnecessary surgeries, high complication rates, and poor care.

           The State survey agency notified the hospital of the survey 3 weeks in advance.




Hospital Quality: A Call for Greater Accountability    40                              OEI-01-97-00050
                                                                                APPENDIX D



Summary Observations

         The survey began around 11:30 in the morning on the first day and went until noon on
   the third day, lasting about 19 hours total. The surveyors continued surveying until 5:30 or
   6:00 PM on the first 2 days. The survey began with an opening conference that included the
   surveyors and the hospital’s leadership. After general introductions and reviewing a loose
   agenda, the hospital presented an overview of its recent improvements. Then the surveyors
   began their document reviews, which covered hospital logs, minutes, bylaws, and medical
   records, among others. By early afternoon, the surveyors split up to begin their sessions, with
   the trainee always assigned to follow a senior surveyor.

         The surveyors relied on interviews, document reviews, and observations. Once or twice
   a day, the surveyors would compare notes and share concerns so others could pursue them in
   different areas of the hospital. The surveyors selected the files they would review themselves,
   based on staff rosters; surgical, admission, and emergency logs; and other documents. They
   also pushed alarm bells and observed responses. They tested the hospital staff’s knowledge by
   asking them to demonstrate certain tasks, such as turning on pieces of equipment, testing a
   defibrillator, changing oxygen tanks, and sterilizing a scope.

        Through the information gleaned from the above, the surveyors identified a range of
   concerns. Among them were the following:

   <Staff were untrained in certain hospital equipment. For example, when surveyors asked for a
   demonstration of the hospital’s new negative pressure room, no one knew how to turn it on.

   <The hospital’s emergency call systems were inadequate. For example, the surveyors pulled
   call bells in the emergency room and procedures room. No one answered the calls.

   <Medical record documentation was problematic. In particular, patient consent forms failed to
   spell out risks in lay terms and included broad consent for “any other necessary procedure.”
   Physician signatures were also missing from records. Legibility was a problem, too.

   <The nursing department appeared to have inadequate staff. Also, the nursing department
   failed to use individualized care plans, follow-through on incident reports, or identify patients’
   educational needs.




Hospital Quality: A Call for Greater Accountability   41                                 OEI-01-97-00050
                                                                                APPENDIX D


   <The hospital lacked a policy for transferring high-risk obstetrical patients, had a high c-section
   rate, and lacked documentation for fetal distress. For example, the hospital delivered an infant
   at 27-weeks gestation even though it lacked neonatal capacity. Furthermore, three of six
   obstetrical records the surveyors reviewed documented some sort of adverse outcome.

   <The hospital lacked a performance appraisal system for its medical staff and its reappointment
   process excluded peer review data. Furthermore, physicians covering the emergency room
   lacked privileges for common emergency procedures, such as placing chest tubes and
   performing tracheotomies.

   <The appropriateness of care in three or four records was questionable. The surveyors copied
   those records and forwarded them to a peer review organization for review.

          During the exit conference (the last session of the survey), the surveyors discussed their
   findings, but couched their comments as preliminary. After all, they had collected a variety of
   documents to review and analyze off-site. Findings from those documents could alter their on-
   site findings. The hospital would not know the final survey outcome until that process
   occurred (see page 23 for a final summary of the survey’s findings).

         Sessions observed by the OIG included, in part or in whole, pharmacy, medical staff,
   nursing, discharge planning, operating and recovery rooms, procedure room, emergency room,
   dietary, and the building and grounds tour. Highlights of some of the observed sessions follow.

Medical Staff Session

          This session lasted 3 hours on the first day and continued for 1 hour on the second day.
   Before beginning the session, the surveyor read the bylaws. During the session, she
   interviewed the administrative staff person in charge of credentialing and reviewed credential
   files. She selected the files herself, and by the end of the second day, had reviewed the
   credentials of each of the six staff physicians, among others. In questioning the staff and
   reviewing the files, the surveyor was especially interested in how the medical staff took
   responsibility for quality, how the hospital delineated privileges, and evidence of a reappraisal
   and peer review system. No one from the medical staff participated in this session.




Hospital Quality: A Call for Greater Accountability   42                                 OEI-01-97-00050
                                                                                APPENDIX D


          The surveyor interview covered the following topics: appointment and reappointment
   process, language skills of foreign medical graduates, reliance on the American Medical
   Association’s physician profile database, conscious sedation, emergency room coverage and
   procedures, the on-call system, pending litigation, licensure limitations, prerequisites for active
   staff, availability of surgical services, use of podiatrists and psychologists, autopsies, organ
   donation, physician experience and competence with certain procedures, unexpected surgical
   outcomes such as perforations, role of chart review, and medical staff involvement in appraisal
   process.

         As this session unfolded over the 2 days, the surveyor asked for more and more files, and
   then operating room logs and other documents to confirm the range of procedures the hospital
   provided fell within the privileges granted. By the end of the session, the surveyor identified
   some areas of concern. For example, she expressed concerns about privileges because
   physicians responsible for covering the emergency room lacked privileges for common
   emergency room procedures such as chest tubes. The surveyor offered examples of similar
   problems at other hospitals that lead to unnecessary deaths. She also questioned whether
   medical staff were involved in the evaluation of patient care and physician appraisal. Other
   concerns related to the staff’s failure to follow its own bylaws, the lack of written guidelines
   for certain high-risk patients, and illegibility of medical records.

Pharmacy Session

         One surveyor conducted the pharmacy review, which lasted about 1 hour. The hospital’s
   pharmacy, located in the old part of the hospital, had one full-time pharmacist and one part-
   time technician. The pharmacist’s background was in retail pharmacy and he was new to
   practicing in a hospital.

         The surveyor reviewed the pharmacist’s license and other documents. She was
   particularly interested in documentation of proper narcotics tracking, logs tracking after-hours
   access to the pharmacy, and protocols for any performance improvement projects. In addition
   to reviewing the papers, she asked for copies to take with her. While in the pharmacy she also
   inspected the hood and scanned the storage shelves, where she noted narcotics that were
   labeled without strength identified.

          The surveyor’s questions covered the following areas: formulary development,
   mechanism for drug recalls, restocking and security of crash carts, computerization, drug
   utilization review, hospital strategic planning, performance improvement projects, drug errors,
   and reliance on and competency of the pharmacy technician. Because of the obvious humidity


Hospital Quality: A Call for Greater Accountability   43                                  OEI-01-97-00050
                                                                                 APPENDIX D


   problem in the small pharmacy, the surveyor asked questions about the impact of the dampness
   on the efficacy and storage of the drugs.

         The surveyor focused, however, on narcotics and adverse drug reactions and how the
   hospital tracked them. Apparently the nursing department viewed it as a pharmacy
   responsibility and the pharmacist viewed it as nursing. The surveyor was concerned about the
   lack of accountability and spent a lot of time educating the pharmacist about what he needed to
   track and why, referencing requirements of the Drug Enforcement Administration.

Nursing

         This session lasted about 2 hours and involved the director of nursing and one surveyor.
   The director of nursing was new. In fact, she was the 15th director of nursing the hospital hired
   in 7 years. The surveyor reviewed documentation of the hospital’s nurse staffing plan, among
   other documents. Low staffing and acuity emerged as major concerns. Among the topics the
   surveyor questioned the director of nursing about were: reliance on contract nurses, orientation
   and training of new nurses, determining baseline competency, role of charge nurses, nurse roles
   in tracking and reporting adverse drug reactions, anatomical gifts, contingency plans, incident
   reporting (falls, needle sticks, and employee injuries), use of telephone and verbal orders, and
   infection control.

Statement of Deficiencies Stemming from the Certification Survey

         Within a few weeks of the on-site portion of the survey, the State agency sent the final
   statement of deficiencies to the hospital. The statement included deficiencies at each of the
   three levels (condition, standard, and element) as noted below:

   Condition of Participation: Governing Body (42 CFR 482.12)

           Two elements under this condition were unmet, concerning the accountability of the
           medical staff and its appointment process.

   Condition of Participation: Quality Assurance (42 CFR 482.21)

           One standard under this condition was unmet, concerning implementation of the quality
           assurance plan. Two elements under this condition were also unmet, both concerning
           clinical plans: one because the hospital lacked evidence that it evaluated drug errors and
           one because it lacked evidence that it evaluated a recent increase in c-sections.


Hospital Quality: A Call for Greater Accountability   44                                  OEI-01-97-00050
                                                                                 APPENDIX D



   Condition of Participation: Medical Staff (42 CFR 482.22)

           This condition was unmet based on the medical staff’s failure to operate under its bylaws
           and develop or implement a system of accountability. Two standards and four elements
           were also out of compliance under this condition. One unmet standard concerned the
           accountability and organization of the medical staff; the other, the medical staff’s failure
           to abide by its bylaws. The unmet elements included the failure of the medical staff to
           conduct periodic appraisals of its members and to delineate clinical privileges, among
           others.

   Condition of Participation: Nursing Services (42 CFR 482.23)

           Two elements under this condition were unmet. One concerned the lack of individualized
           nursing care plans for each patient. The other concerned the problems with the reporting
           of medication errors.

   Condition of Participation: Medical Record Services (42 CFR 482.24)

           Two elements under this condition were unmet. One concerned illegibility and one
           concerned delinquent medical records.

   Condition of Participation: Pharmaceutical Services (42 CFR 482.25)

           One element, concerning the security of drugs, was unmet.

   Condition of Participation: Physical Environment (42 CFR 482.41)

           One standard was unmet. This element encompassed several concerns related to patient
           safety and well-being: the lack of working alarm systems, lack of staff knowledge of and
           response to alarm systems, lack of staff knowledge on certain patient care equipment,
           lack of safe emergency exits, and lack of mechanism to monitor temperature and humidity
           in the pharmacy, among others.




Hospital Quality: A Call for Greater Accountability   45                                   OEI-01-97-00050
                                                                              APPENDIX D



   Condition of Participation: Surgical Services (42 CFR 482.51)

           Two elements were unmet. One concerned the hospital’s failure to delineate surgical
           privileges in accordance with competency. The other concerned the lack of a properly
           executed informed consent form.

   Condition of Participation: Emergency Services (42 CFR 482.55)

           One element was unmet. It concerned the medical staff’s failure to abide by policies and
           procedures governing care provided in the emergency department and the nursing staff’s
           failure to adhere to established triage policy.

         Based on the above findings, the State survey team conducted two more surveys at this
   hospital, both within 2 months of the original survey observed by the OIG. As of the last
   follow-up survey, the hospital had corrected its deficiencies to the satisfaction of the survey
   team.




Hospital Quality: A Call for Greater Accountability   46                               OEI-01-97-00050
                                                                             APPENDIX E



                       Detailed Comments on the Draft Reports

         In this appendix we present the full comments of all parties that responded to our four
   draft reports. In order, the comments that we present in this appendix are from the following
   parties:

   C      Health Care Financing Administration, U.S. Department of Health and Human Services

   C      Joint Commission on Accreditation of Healthcare Organizations

   C      Association of Health Facility Survey Agencies

   C      American Osteopathic Association

   C      American Hospital Association

   C      American Association of Retired Persons

   C      Service Employees International Union

   C      National Health Law Program

   C     Public Citizen’s Health Research Group




Hospital Quality: A Call for Greater Accountability   47                             OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   48        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   49        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   50        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   51        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   52        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   53        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   54        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   55        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   56        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   57        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   58        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   59        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   60        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   61        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   62        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   63        OEI-01-97-00050
                                                                                       APPENDIX E


                      Association of Health Facility Survey Agencies Response to OIG Report

     June 1999

     The mission and purpose of the Association of Health Facility Survey Agencies (AHFSA) is to
     strengthen the role of its member state agencies in advocating, establishing, overseeing and
     coordinating health care quality standards that will assure the highest practicable quality of health
     care for all state and federally-regulated health care providers. In addition to other functions,
     AHFSA offers advice and recommendations to the Health Care Financing Administration (HCFA).
     The comments AHFSA offers below concerning the Department of Health and Human Services
     Office of Inspector General (OIG) report entitled “The External Review of Hospital Quality” are
     intended to improve the effectiveness of oversight and regulation of our nation’s hospitals.

     In reviewing the report, our association is in agreement with the OIG’s assessment of the current
     system of hospital regulation and oversight provided by HCFA, state regulatory agencies and the
     Joint Commission on the Accreditation of Healthcare Organizations (Joint Commission). There are
     both positive and negative components to the processes of accreditation and Medicare certification
     that can be developed and strengthened with HCFA’s guidance and direction.

     In the report, the OIG mentions that HCFA’s validation survey process is ineffective in monitoring
     the Joint Commission’s survey performance. The purpose of the validation survey process, as we
     understand it, is not to validate the Joint Commission’s performance, but instead to validate that
     Joint Commission standards and the application of those standards and process does, in fact,
     assure compliance with Medicare Conditions of Participation. Therefore, it is our position that
     validation surveys do have a place in hospital regulatory oversight. However, in order to promote
     consistency in all hospital surveys (validation or standard surveys) from state to state, and thereby,
     ascertain whether these surveys are effective, we believe HCFA should develop and provide
     hospital training on a survey process for states to use as a guide when surveying hospitals. Ideally,
     the survey process would be similar in format to survey processes developed for other Medicare
     programs such as long term care. Additionally, whereas at present, HCFA often may not require a
     hospital to submit a plan of correction and receive follow-up visits as a result of validation survey
     results, we believe the process would be more efficacious if all hospitals with deficiencies from
     validation surveys be required to submit plans of corrections and receive follow-up visits.

     The OIG notes the recently piloted Observation survey process whereby state agencies accompany
     Joint Commission surveyors during accreditation surveys as one solution in monitoring Joint
     Commission’s survey performance. However, an AHFSA member from a state who participated
     in the Observation survey process did not feel it was effective in assuring minimum standards of
     care were met, but only determined whether the entity conducting the survey did, or did not, follow




Hospital Quality: A Call for Greater Accountability    64                                        OEI-01-97-00050
                                                                                      APPENDIX E


     their prescribed survey process. Therefore, we have reservations as to the effectiveness of the
     Observation survey with regards to improving patient care and outcomes.

     Concerning the issue of inspections of non-accredited hospitals, AHFSA takes the position these
     facilities should be surveyed at least every three (3) years and that a portion of the surveys should
     be unannounced. This survey cycle would be consistent with the minimum survey cycle offered by
     the Joint Commission. Additionally, as HCFA has clearly demonstrated its priority and
     commitment in monitoring the quality of care provided to residents in long term care facilities, it
     should also do the same for patients receiving care in hospitals by providing the necessary funding
     to state agencies needed to accomplish the regulatory oversight of hospitals.

     The OIG report mentions that surveys conducted by the Joint Commission are structured such that
     there is little time for investigation of complaints. To identify possible substandard care in
     hospitals during accreditation surveys, we believe it is essential the Joint Commission place more
     time and emphasis on conducting complaint investigations. This includes communicating with
     state agencies prior to accreditation surveys in order to gather information about the hospital’s
     compliance/complaint history. The Joint Commission should consider random selection of medical
     records for review, including those patients in the hospital at the time of the survey and those who
     have been discharged. Additionally, we believe the Joint Commission should conduct more
     unannounced accreditation surveys in order to obtain a more realistic picture of the care being
     provided by hospitals.

     Concerning the measure of quality care provided by hospitals, we believe potential patients and
     their families would best be served by on-line computer viewing such as a website of survey results
     from Joint Commission surveys and, where applicable, state agency surveys. We believe such a
     website should go beyond a survey score or level of accreditation, but should include more in-depth
     information such as areas noted to be out of compliance with standards or regulations identified by
     Joint Commission or state agency surveyors during hospital inspections, including those
     inspections based on complaint allegations.

     In conclusion, we believe it is essential for state agencies, HCFA and the Joint Commission to
     work collaboratively in the regulatory oversight of our nation’s hospitals. Only through such
     collaboration can we begin to make strides in assuring quality health care is provided by hospitals
     and the health care interests of the public are protected.




Hospital Quality: A Call for Greater Accountability   65                                        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   66        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   67        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   68        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   69        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   70        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   71        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   72        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   73        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   74        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   75        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   76        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   77        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   78        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   79        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   80        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   81        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   82        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   83        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   84        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   85        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   86        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   87        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   88        OEI-01-97-00050
                                                           APPENDIX E




Hospital Quality: A Call for Greater Accountability   89        OEI-01-97-00050
                                                                           APPENDIX F


                                                      Endnotes

1. Troyen A. Brennan et al, “Incidence of Adverse Events and Negligence in Hospitalized
Patients,” The New England Journal of Medicine 324 (February 7, 1991) 6: 370-376.

2. The 17.7 percent refers to adverse events considered by the authors to be serious. The authors
defined adverse events as “situations in which an inappropriate decision was made when, at the
time, an appropriate alternative could have been chosen” and serious as ranging from “temporary
disability to death.” See Lori B. Andrews et al, “An Alternative Strategy for Studying Adverse
Events in Medical Care,” The Lancet 349 (February 1, 1997)309-313.

        See also; Lucian L. Leape, “Error in Medicine,” Journal of the American Medical
Association 272 (December 21, 1994) 23: 1851-1857; David C. Classes et al, “Adverse Drug
Events in Hospitalized Patients,” Journal of the American Medical Association 277 (January
22/29, 1997) 4: 301-306; Mark R. Chassin et al, “The Urgent Need to Improve Health Care
Quality: Institute of Medicine National Roundtable on Health Care Quality,” Journal of the
American Medical Association 280 (September 16, 1998) 11: 1000-1005; David W. Bates et
al,“Effect of Computerized Physician Order Entry and a Team Intervention on Prevention of
Serious Medication Errors,” Journal of the American Medical Association 280 (October 21,
1998) 1311-1316; Robert A. Raschke et al, “A Computer Alert System to prevent Injury from
Adverse Drug Events: Development and Evaluation in a Community Teaching Hospital,” Journal
of the American Medical Association 280 (October 21, 1998) 1317-1320; and David C. Classen,
“Clinical Decision Support Systems to Improve Clinical Practice and Quality of Care,” Journal of
the American Medical Association 280 (October 21, 1998) 1360-1361.

3. One example is a November 1998 New York Times article under the headline: “Death in
Surgery Reveals Troubled Practice and Lax Hospital.” The article described a “botched”
operation on a young woman by a surgeon who was on probation by the State medical board and
who used unauthorized medical equipment brought in to the operating room by a medical supply
salesman. Such incidents can happen even in the best of hospitals, but they underscore the point
that hospitals can be dangerous places and that oversight systems can be lax. See also
“Overdoses Still Weigh heavily at Dana Farber,” The Boston Globe (26 December 1995); “Florida
Doctor Sanctioned in New Amputation,” The Boston Globe (19 July 1995); “Two Surgeons
Surrender Licenses After Mistakenly Removing Kidney,” The Boston Globe (6 June 1996); “How
Can We Save the Next Victim?” New York Times Magazine (15 June 1997); “Another Hospital
Death Probed,” The Boston Globe (26 July 1997); “Patient Dies After Drinking Poison Left on
Nightstand,” San Diego Union-Tribune (6 March 1998); ”Man Arrested for Posing as Doctor for
4 years,” posted at the CNN interactive webpage (16 May 1998); “Deadly Restraint: Patients


Hospital Quality: A Call for Greater Accountability      90                         OEI-01-97-00050
                                                                              APPENDIX F


Suffer in a System Without Oversight,” The Hartford Courant (13 October 1998).

4. http://WWW.hcfa.gov/Medicare/Medicare.htm

5. Ibid.

6. Ibid.

7. Ibid.

8. P.L. 89-97.

9. The HCFA published its proposed hospital conditions of participation on December 19, 1997
(62 Fed. Reg. 66,726). On July 2, 1999, it published an interim final rule concerning patients’
rights (64 Fed. Reg. 36,070).

10. Social Security Act, sec. 1865, 42 U.S.C 1395bb.

11. Health Care Financing Administration, OSCAR 10 Report, as of May 30, 1998.

12. Two companion reports entitled The Role of Accreditation and The Role of Medicare
Certification explore the role of accreditation and Medicare certification in greater detail.

13. Michael S. Hamm, The Fundamentals of Accreditation (Washington, D.C.: American Society
of Association Executives, 1997) 3.

14. Nonaccredited hospitals can go through the Medicare certification process for free. Although
the President’s Department of Health and Human Services Fiscal Year 1999 Budget included a
proposal authorizing the Secretary to impose a user fee for certification surveys, that proposal
was excluded from the budget bill passed by Congress.

15. 42 U.S.C. 1395bb.

16. 42 U.S.C. 1395aa.

17. Health Care Financing Administration, Oscar 10 Report, as of May 30, 1998.

18. Office of Inspector General, Medical Licensure and Discipline: An Overview (June 1986);
The Utilization and Quality Control Peer Review Organization Program: Quality Review
Activities (September 1988); The Utilization and Quality Control Peer Review Organization
Program: Sanction Activities (November 1988); The Utilization and Quality Control Peer



Hospital Quality: A Call for Greater Accountability   91                                OEI-01-97-00050
                                                                              APPENDIX F


Review Organization Program: An Exploration of Program Effectiveness (February 1989);
Performance Indicators, Annual Reports, and State Medical Discipline: A State-by-State Review
(August 1990); Quality Assurance Activities of Medical Licensure Authorities in the US and
Canada (February 1991); Educating Physicians Responsible for Poor Medical Care: A Review
of the PROs’ Efforts (February 1992); The Sanction Referral Authority of Peer Review
Organizations (April 1993); The Peer Review Organizations and State Medical Boards: A Vital
Link (April 1993); The Beneficiary Complaint Process of the Medicare Peer Review
Organizations (November 1995); The Role of Medicare PROs in Identifying and Responding to
Poor Performers (December 1995); and Monitoring and Evaluating the Health Care Quality
Improvement Program (August 1988).

19. Joint Commission on Accreditation of Healthcare Organizations, “Understanding the 197
hospital Performance Report,” 4.

20. Ibid., 10.

21. HCFA to States, FY 1997 State Survey and Certification Budget Call Program Requirements
and Budget Guidelines.

22. Joint Commission on Accreditation of Healthcare Organizations.

23. See D. E. Berwick, “Continuous Quality Improvement as an Ideal in Health Care,” New
England Journal of Medicine 320 (January 5, 1989) 1: 53-56 and The Institute of Medicine,
Medicare: A Strategy for Quality Assurance (Washington, D.C.: National Academy Press, 1990).

24. Referred to as the Sentinel Event policy. For a fuller discussion of this policy, see our
companion report, The Role of Accreditation.

25. For a fuller discussion of the ranking of State survey agency activities, see our companion
report, The Role of Medicare Certification.

26. 62 Fed. Reg. 66726, Dec. 19, 1997.

27. Ibid.

28. Ibid., 66728.

29. Mark R. Chassin et al, “The Urgent Need to Improve Health Care Quality: Institute of
Medicine National Roundtable on Health Care Quality,” Journal of the American Medical
Association 280 (September 16, 1998) 11: 1000-1005.



Hospital Quality: A Call for Greater Accountability   92                                OEI-01-97-00050
                                                                          APPENDIX F


30. Ibid., 1004.

31. Ibid.

32. Ibid.

33. HCFA, Report to Congress on the Study of: Private Accreditation (Deeming) of Nursing
Homes, Regulatory Incentives and Non-Regulatory Initiatives, and Effectiveness of the Survey
and Certification System, July 1998; General Accounting Office, California Nursing Homes:
Federal and State Oversight inadequate to Protect Residents in Homes with Serious Care
Violations, GAO/T-HEHS-98-219 (July 28, 1998); Hearings Before the Senate Special
Committee on Aging, July 27-28, 1998; see also President Clinton’s remarks announcing the new
nursing home regulations, July 21, 1998 (in Weekly Compilation of Presidential Documents, July
27, 1998, p 1446).

34. In his remarks on July 21, 1998 President Clinton called for a “crackdown on unsafe nursing
homes...[and] a step up [in] investigations” (in Weekly Compilation of Presidential Documents,
July 27, 1998, p 1446).

35. Until January 1998, HCFA only selected hospitals for validation surveys from those
undergoing Joint Commission surveys during certain months of the year. The HCFA reports that
it corrected this problem.

36. Tracking termination notices would provide HCFA insights into how often hospitals are
unable to correct problems identified through a survey within 45 days, because HCFA only issues
termination notices when problems go uncorrected for 45 days.

37. 42 U.S.C.1395ll.

38. 62 Fed. Reg. 66726, Dec. 19, 1997.

39. The HCFA implemented this approach to overseeing the State survey agencies (referred to as
the State Agency Quality Improvement Program, or SAQIP) in 1996. The HCFA defined a core
set of performance standards that apply generally to survey and certification activities for any
provider, for example nursing homes, hospitals, or home health agencies. The HCFA expects
State agencies to develop improvement plans for specific standards.

40. Performance reports from the Joint Commission are available upon request and through the
Joint Commission’s website. For further discussion of the performance reports, see our
companion report, Holding the Reviewers Accountable.



Hospital Quality: A Call for Greater Accountability   93                            OEI-01-97-00050
                                                                          APPENDIX F


41. 42 U.S.C. 1395aa.

42. See Lori B. Andrews et al, “An Alternative Strategy for Studying Adverse Events in Medical
Care,” The Lancet 349 (February 1, 1997)309-313; Troyen A. Brennan et al, “Incidence of
Adverse Events and Negligence in Hospitalized Patients,” The New England Journal of Medicine
324 (February 7, 1991) 6: 370-376; Lucian L. Leape, “Error in Medicine,” Journal of the
American Medical Association 272 (December 21, 1994) 23: 1851-1857; David C. Classes et al,
“Adverse Drug Events in Hospitalized Patients,” Journal of the American Medical Association
277 (January 22/29. 1997) 4: 301-306; Mark R. Chassin et al, “The Urgent Need to Improve
Health Care Quality: Institute of Medicine National Roundtable on Health Care Quality,” Journal
of the American Medical Association 280 (September 16, 1998) 11: 1000-1005; David W. Bates
et al,“Effect of Computerized Physician Order Entry and a Team Intervention on Prevention of
Serious Medication Errors,” Journal of the American Medical Association 280 (October 21,
1998) 1311-1316; Robert A. Raschke et al, “A Computer Alert System to prevent Injury from
Adverse Drug Events: Development and Evaluation in a Community Teaching Hospital,” Journal
of the American Medical Association 280 (October 21, 1998) 1317-1320; and David C. Classen,
“Clinical Decision Support Systems to Improve Clinical Practice and Quality of Care,” Journal of
the American Medical Association 280 (October 21, 1998) 1360-1361.

43. Sidney A. Shapiro and Randy S. Rabinowitz, “Punishment versus Cooperation in Regulatory
Enforcement: A Case Study of OSHA,” Administrative Law Review 49 (1997)4: 713-762.


44. National Roundtable on Health Care Quality, p 1004.

45. Prospective Payment Assessment Commission, Report and Recommendations to the
Congress (March 1997) 13.

46. Hamm, Fundamentals of Accreditation, 3.

47. 42 CFR 488.8. These regulations define a 20 percent disparity rate between the accrediting
organization and the State agency as a trigger for a deeming authority review.

48. Stephen F. Jencks, “The Government’s Role in Hospital Accountability for Quality of Care,”
The Journal of Quality Improvement (July 1994)364-369.

49. 62 Fed. Reg. 66728, Dec. 19, 1997.




Hospital Quality: A Call for Greater Accountability   94                           OEI-01-97-00050
